 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




   BUREAU OF INDUSTRY AND SECURITY

The Export Licensing Process for Chemical and
  Biological Commodities is Generally Working
        Well, But Some Issues Need Resolution


       Final Inspection Report No. IPE-16946—March 2005




                PUBLIC RELEASE



         Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                                                 Final Report IPE-16946

Office of Inspector General                                                                                                            March 2005


                                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY ...........................................................................................................................i 

BACKGROUND .......................................................................................................................................... 1 

OBJECTIVES, SCOPE, AND METHODOLOGY ...................................................................................... 9 

OBSERVATIONS AND CONCLUSIONS................................................................................................ 11 

I. 	    Licensing Process for Chemical and Biological Commodities Generally Resulted in Timely

        Decisions in FY 2003, but Some Improvements Are Needed .......................................................... 11 

         A. Review of FY 2003 license applications shows the licensing process is working 

            reasonably well........................................................................................................................... 11 

         B. 	 Ninety-day time frame does not provide for prompt processing of “non-escalated” license                                                       

              applications................................................................................................................................. 16 

         C. 	 License processing guidance should be consolidated and readily accessible                                                     

              to licensing officers .................................................................................................................... 17 

II. 	   Review of License Applications by the SHIELD Works Reasonably Well, But the Operating                            

        Committee Needs to Sustain Recent Improvements in Timeliness .................................................. 21 

         A. The SHIELD review process ensures that chemical and biological license applications                  

            are appropriately vetted before escalation to the Operating Committee .................................... 21 

         B. 	 Recent Operating Committee changes should result in more timely decisions.......................... 22 

III. 	 Cumulative Effect Reviews Are Not Being Performed for Chemical and Biological 

       Export Licenses................................................................................................................................. 25 

         A. 	Congress and others have emphasized the importance of cumulative effect analyses................ 25 

         B. 	 BIS lacks the systems and resources to perform cumulative effect analyses ............................. 26 

         C. 	 Licensing referral agencies are not performing cumulative effect analyses............................... 29 

IV. 	 Recent Improvements in the Timeliness of Changes to the Commerce Control List                                                

      Need to Be Maintained ..................................................................................................................... 31 

         A. Updating the CCL with chemical and biological items is too time consuming.......................... 31 

         B. 	 Delays in publishing Australia Group guidelines could cause problems ................................... 33 

V. 	 Denial Notification to the Australia Group Needs to Be More Transparent..................................... 37 

VI. 	 BIS Outreach Efforts Are Mainly Targeted to the Biological Exporting Community and 

      Could Be Expanded .......................................................................................................................... 42 

         A. BIS outreach efforts to the chemical community need to be expanded...................................... 42 

         B. 	 There is an opportunity for focused outreach to registered entities............................................ 43 

VII. 	 BIS’ Export Enforcement Office Needs to Act on the Treaty Compliance Division’s 

       Investigative Referrals ...................................................................................................................... 46 

SUMMARY OF RECOMMENDATIONS ................................................................................................ 48 

APPENDIXES

A: List of Acronyms ................................................................................................................................... 50 

B: Australia Group Members...................................................................................................................... 51 

C: List of Previous Commerce and Interagency Office of Inspector General Reports, Completed                                                         

      Pursuant to the National Defense Authorization Act For 2000 ........................................................ 52 

D: Agency Response to Draft Report ......................................................................................................... 53

U.S. Department of Commerce                                                               Final Report IPE-16946

Office of Inspector General                                                                          March 2005


                                        EXECUTIVE SUMMARY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct an 8-year assessment of the adequacy of current export controls and
counterintelligence measures to prevent the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern. The NDAA mandates that the
Inspectors General report to the Congress no later than March 30 of each year, until 2007.

The United States controls the export of sensitive goods and technologies for national security,
foreign policy, antiterrorism, and nonproliferation reasons under the authority of several different
laws. The primary legislative authority is the Export Administration Act of 1979, as amended.1
Under the Act, the Commerce Department’s Bureau of Industry and Security (BIS) administers
the Export Administration Regulations (EAR) by developing export control policies, issuing
export licenses, and enforcing the laws and regulations for dual-use exports.2 The EAR contains
the Commerce Control List (CCL), which identifies the specific dual-use items subject to
control, and the conditions under which those items may be exported. Under Executive Order
12981, as amended, several other agencies—the departments of Defense, State, and Energy—
have the authority to review all export license applications and render approval or denial
opinions. The Central Intelligence Agency also provides intelligence related to the end-users
listed on the license applications.

Of the 15,506 export license applications received by BIS in FY 2004, 2,801 were for chemical
and biological commodities listed on the CCL. Most of these items are also subject to controls
emanating from the United States’ membership in the Australia Group (AG), a multilateral
regime dedicated to curbing the proliferation of chemical and biological weapons. The United
States is one of 38 member countries and the European Commission3 that make up the Australia
Group, which was established in 1985. AG members have adopted controls on chemical
weapons precursors; dual-use chemical manufacturing facilities and equipment; biological agents
used against humans, animals, and plants; and dual-use biological equipment.

To comply with the NDAA’s FY 2005 requirement, the Offices of Inspector General4 agreed to
evaluate the U.S. export licensing process for chemical and biological commodities to determine
whether current practices and procedures help deter the proliferation of chemical and biological
weapons. Within Commerce, we specifically sought to evaluate BIS’ licensing process for
chemical and biological commodities to determine whether the process is timely, complies with
statutory and regulatory requirements, and takes the cumulative effect of prior technology
transfers to end users into consideration during the review of license applications. We also
1
  Although the Act last expired on August 20, 2001, the President extended existing export regulations under 

Executive Order 13222, dated August 17, 2001, invoking emergency authority under the International Emergency 

Economic Powers Act. 

2
  Dual-use commodities are goods and technology determined to have both military and commercial uses. 

3
  The European Commission is the executive body of the European Union—consisting of 25 European countries—

whose role is to propose legislation, administer and implement policies, enforce commission law, and negotiate 

international agreements relating to trade and cooperation. 

4
  This year’s review also included the participation of the Offices of Inspector General from the Departments of

Agriculture, Health and Human Services, and Homeland Security. 


                                                        i
U.S. Department of Commerce                                                                  Final Report IPE-16946

Office of Inspector General                                                                             March 2005


assessed whether data and information are properly shared between the various agencies
involved in the export license review process and whether the dispute resolution process between
the agencies works. Finally, we looked at BIS’ interaction with the AG and its procedures for
placing newly controlled items on the CCL. We did not evaluate the overall outcome of the
licensing process and whether countries or entities were able to illegally acquire biological or
chemical commodities by circumventing the licensing process altogether. Our specific
observations are as follows:

Licensing Process for Chemical and Biological Commodities Generally Resulted in Timely
Decisions in FY 2003, but Some Improvements Are Needed. We took a sample of 90 of the
1,803 chemical and biological license applications submitted in FY 2003 and compared them
against BIS’ guidance for reviewing and processing applications. We found that the licensing
process is generally resulting in timely decisions. For example, the average time to process a
license application was 43.7 days. This is slightly higher than the 40-day BIS standard or
internal goal for processing license applications, but we noted that 26 of the 82 applications in
our revised sample had review times of 44 days or more.5 In addition, Defense, State, and
Energy all completed their review of license applications within the 30-day period allowed, but
CIA took more than 30 days to return 17 of the 56 cases referred to it in FY 2003. It should be
noted, however, that the 30-day period specified for interagency review in Executive Order
12981, as amended, does not apply to the CIA.

Further, license processing times could potentially be improved if BIS set internal timeframes for
closing out applications that do not need to be escalated to the interagency dispute resolution
process. While neither Executive Order 12981 nor the EAR explicitly set time requirements for
the issuance of license applications following the conclusion of the interagency review process
where there is no escalation, internal BIS processing timeframes could encourage more timely
disposition of such license applications.

In addition to focusing on the timeliness of the licensing process, licensing officers need to
follow appropriate policies and procedures in order to ensure proper analysis of export license
applications. However, we found that the guidance BIS provides is an assortment of memos and
documents issued over an 11-year period, and all are housed in different places within BIS, not
readily accessible to the licensing officers. In addition, some of the guidance routinely used by
BIS is not very clear. For example, licensing officers are directed to “characterize the end user”
on a license application, but the guidance does not provide instruction on what should be
included in such descriptions or how the licensing officer should acquire and use this
information. BIS should develop and maintain updated, consolidated written guidance, or an
internal operations handbook, to formalize current license application review practices. This
guidance or handbook should be made accessible to all employees involved in the licensing
process (see page 11).

Review of License Applications by the SHIELD Works Reasonably Well, But the
Operating Committee Needs to Sustain Recent Improvements in Timeliness. License
applications for chemical and biological commodities undergo an additional level of review by

5
 8 of the 90 license applications in our sample ultimately could not be included in our analysis for various reasons,
as listed in Figure 5 on page 12.

                                                          ii
U.S. Department of Commerce                                                          Final Report IPE-16946

Office of Inspector General                                                                     March 2005


the Chemical and Biological Weapons Control Group, an interagency body also known as
SHIELD.6 At SHIELD meetings, the member agencies share viewpoints, intelligence
information, and clarifications on statutory and regulatory authority to resolve differences on
specific license applications. The SHIELD review helps ensure that the applications escalated
for dispute resolution are the result of true disagreement between the agencies. Should SHIELD
not resolve interagency differences, applications are normally escalated for dispute resolution.
Executive Order 12981 states that the Operating Committee—the first of three possible levels of
review or appeal in the dispute resolution process—has 14 days to reach a decision once an
application is escalated. The Operating Committee has improved its time to render decisions in
recent years, but still rarely meets the 14-day requirement. In FY 2003, the average number of
days for the committee to reach a decision on chemical and biological license applications was
51. According to BIS, that number was reduced to 22 days for all license applications escalated
to the OC in FY 2004. This improvement in the timeliness of OC decisions should be sustained
(see page 21).

Cumulative Effect Reviews Are Not Being Performed for Chemical and Biological Export
Licenses. Cumulative effect reviews examine the impact of proposed exports when added to
other past exports to countries and entities of concern. Approval of a single export license may
not result in a significant increase in strategic capability of a country or entity of concern, but
approval of multiple licenses combined with diversion of strategic items from other countries,
the provision of items not requiring a license, and/or legitimate shipments from foreign suppliers
could substantially enhance a country’s ability to build a weapon of mass destruction.

BIS may not have sufficient intelligence information to know other commodities acquired by end
users, but it could track exports of items controlled by BIS. However, we found that BIS lacks
the systems and resources to analyze the cumulative effect of prior technology transfers made to
the end users listed on chemical and biological license applications. In addition, BIS does not
receive such assessments from other agencies, including the CIA, during the interagency export
license application review process. Congress has been concerned for many years that the
interagency licensing community lacks an integrated mechanism to conduct cumulative effect
analyses of U.S. technology transfers. To address this continuing concern, we reiterate the
recommendation from our 1999 report,7 that BIS work with the intelligence community,
including the CIA, Defense, Energy, and State, to develop a method to analyze and track the
cumulative effect of dual-use exports to specific countries and regions. No action has been taken
on that earlier recommendation (see page 25).

Recent Improvements in the Timeliness of Changes to the Commerce Control List Need to
Be Maintained. The AG generally recommends new chemical and biological items for control
on an annual basis. However, BIS, in cooperation with the other U.S. licensing agencies, takes
many months to include these newly regulated items on the CCL. During the last 7 years, BIS
has taken an average of 10 months to get newly regulated chemical and biological items
published on the CCL. BIS and the other licensing agencies cannot disclose such items to U.S.
companies and cannot prevent newly regulated items from being exported until the items are
published on the CCL. Changes from the AG’s June 2004 meeting were published on the CCL
6
 The SHIELD is made up of working-level representatives from State, Commerce (BIS), DOD, CIA, and Energy.
7
 U.S. Department of Commerce Office of Inspector General, Bureau of Export Administration: Improvements Are
Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488, June 18, 1999.

                                                     iii
U.S. Department of Commerce                                                   Final Report IPE-16946

Office of Inspector General                                                              March 2005


in just 6 months. We recommend that BIS take appropriate actions to sustain the recent
improvements in the timeliness of U.S. publication of AG guidelines and rule changes that
impact the CCL (see page 31).

Denial Notification to the Australia Group Needs to Be More Transparent. One of the
obligations of AG membership is the submittal of license denials to the group so that potential
proliferators cannot “shop around” for items from one country to another. AG members have
also adopted a “no undercut policy” in which members agree not to approve an identical sale
without first consulting with the member that first denied an export license. The Department of
State, as the lead U.S. representative to the AG, is responsible for submitting license denials to
the AG. For various reasons, State is not currently submitting all denials to the AG, which
means the AG’s no undercut policy is not always triggered. For example, State only submits
denials that involve exports to non-AG countries.

State’s rationale for this “policy” is not documented in any way, which leads to confusion. Since
August 2002, Commerce and State have disagreed about the U.S. policy for submitting denials to
the AG. Unfortunately, the AG’s policy on the reporting of denials is not detailed, so State
interprets the policy one way and Commerce another. Commerce proposes three changes in
State’s current practice: (1) send all denials to the AG to ensure that the no undercut policy is
always triggered, (2) send the denials to the AG at the time that BIS issues its “intent to deny”
letter rather than after the mandatory 45-day period during which BIS will consider any
additional information provided by the exporter to rebut BIS’ decision to deny the application,
and (3) do not unilaterally rescind prior denials sent to the AG. We recommend that BIS ask the
State Department to seek a ruling from the AG Chair on which denials should be sent to the AG
and based on the response, work with all the licensing referral agencies to develop and
implement a written policy and procedures for handling the AG denial notification process (see
page 37).

BIS Outreach Efforts are Mainly Targeted to the Biological Exporting Community and
Could Be Expanded. Outreach to the exporting community is a critical component of BIS’
mission to build awareness of and compliance with export controls. BIS has a reasonably robust
outreach program to the biological exporting community, but outreach specific to the chemical
exporting community has been limited. The only recent outreach dedicated to the chemical
exporting community was done by BIS enforcement agents after the September 11th terrorist
attacks, when the agents were instructed to visit all chemical manufacturers within their
respective regions to inform them of their responsibility to comply with the EAR. Given
resource constraints, BIS should explore alternative ways to increase its outreach to the chemical
community, such as setting up briefings in Washington, mailings, or piggybacking on outreach
done in connection with the Chemical Weapons Convention compliance activities conducted by
BIS’ Treaty Compliance Division. BIS should also seize opportunities to conduct outreach to
the entities registered with the U.S. Department of Agriculture’s Animal and Plant Health
Inspection Service (APHIS) and the U.S. Department of Health and Human Services’ Centers for
Disease Control and Prevention (CDC). Registered entities work with select agents and toxins
controlled by APHIS and CDC, many of which are also contained on the CCL (see page 42).

BIS’ Export Enforcement Office Needs to Act on the Treaty Compliance Division’s
Investigative Referrals. The Treaty Compliance Division (TCD) is the BIS office that helps

                                                iv
U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005


ensure U.S. industry compliance with the Chemical Weapons Convention (CWC), among other
international treaties. CWC, which took effect on April 29, 1997, affects companies involved in
the production, processing, consumption, import, and export of a range of commercial chemicals
and precursors. One of the CWC requirements imposed on industry is the submittal of end-use
certificates, within 7 days of the date of export, that state the types and quantities of chemicals
being exported, the intended end-use for the chemicals, and a certification that the chemicals will
be used only for purposes not prohibited by the CWC. Between FY 2002 and 2004, TCD
identified 13 instances where companies did not submit the end-use certificates to BIS, as
required. TCD staff referred all of the cases of non-compliance to BIS’ Office of Export
Enforcement (OEE) for investigation and appropriate action. However, TCD told us at the start
of our review that to date, no action had been taken against offenders, and it feared that some
exporters have gotten the impression that BIS does not enforce the end-use certificate
requirement.

We found that OEE had opened 9 investigations on the 12 cases of non-compliance referred by
TCD.8 OEE had no record of one referral and the referral of two companies in FY 2003 was
rolled into open investigations of the same two companies for the same infraction in FY 2002.
After closely analyzing the investigations upon our request, OEE officials determined that three
cases were closed and of those, two were closed prematurely and would be reopened. For the
remaining six cases, no final action had been taken and the cases were still open. OEE should
inform TCD of the outcome of investigations, and TCD should track its referrals to OEE so it
can follow up if it has not received status reports on investigations after a specified period of
time. This information is necessary to help show the other CWC member countries that the U.S.
consistently enforces the treaty within its borders (see page 46).

On page 48, we offer specific recommendations to address our concerns.




In a March 30, 2005, written response to our draft report, the Acting Under Secretary for
Industry and Security agreed with all our recommendations and provided us with specific
comments on the text of the draft report to ensure its accuracy. Where appropriate, we have
made changes to the report and recommendations in response to BIS’ comments. In addition, we
discuss pertinent aspects of the bureau’s response after each recommendation in the report. We
have asked BIS to provide an action plan, within 60 calendar days, addressing the status of its
actions taken to implement the recommendations in our report. The complete response from
BIS is included as an appendix to this report (see page 53).




8
  The 13th referral—for a case of non-compliance in FY 2004—had just been made to OEE at the time of our review,
thus OEE had not yet had time to open a case or take any action.

                                                       v
U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005




                                             BACKGROUND


The United States controls the export of dual-use commodities for national security, foreign
policy, and nonproliferation reasons under the authority of several different laws. Dual-use
commodities are goods and technology determined to have both civilian and military uses. The
primary legislative authority for controlling the export of dual-use commodities is the Export
Administration Act (EAA) of 1979, as amended.9

Under the Act, the Department of Commerce’s Bureau of Industry and Security (BIS)
administers the Export Administration Regulations (EAR) by developing export control policies,
issuing export licenses, and enforcing the laws and regulations for dual-use exports. BIS was
established in 1987 as a separate regulatory agency within the Commerce Department to control
dual-use exports. Prior to 1987, the agency was an operating component of Commerce’s
International Trade Administration. In FY 2004, BIS had 371 employees and an appropriation of
$69 million.

BIS organizational structure

BIS has two principal operating units: Export Administration (EA) and Export Enforcement
(EE). Within EA, there are two offices with responsibility for processing export license
applications—the Office of Nonproliferation and Treaty Compliance and the Office of National
Security and Technology Transfer Controls. Under the Office of Nonproliferation and Treaty
Compliance is the Chemical and Biological Controls Division (CBCD), which processes export
license applications pertaining to chemical and biological commodities, equipment, and
software. Our review focused on the activities of CBCD, which generally handles license
applications for items controlled on the Commerce Control List (CCL) in 14 different
commodity categories. Most of these items are also subject to controls emanating from the
United States’ membership in the Australia Group (AG), a multilateral assemblage of countries
dedicated to curbing the proliferation of chemical and biological weapons. A description of how
the CCL is derived can be found on page 4.

The Australia Group

The AG, established in 1985, is a forum of industrialized countries that cooperate in trying to
prevent the proliferation of chemical and biological weapons, by coordinating export controls,
exchanging information, and performing other diplomatic actions (see Appendix B for list of
member countries). The 39 AG members have adopted controls on chemical weapon precursors;
dual-use chemical manufacturing facilities and equipment; biological agents used against
humans, animals, and plants; and dual-use biological manufacturing facilities and equipment.

The AG operates by consensus, with members agreeing to develop or amend guidelines,
procedures, and control lists. The group is not based on treaty obligations, so its members,

9
 Export Administration Act of 1979, as amended, sec. 3; 50 U.S.C app. sec. 2402(2). Although the Act expired on
August 20, 2001, the Congress agreed to the President’s request to extend existing export regulations under
Executive Order 13222, dated August 17, 2001, thereby invoking emergency authority under the International
Emergency Economic Powers Act.
                                                       1
U.S. Department of Commerce                                                                      Final Report IPE-16946

Office of Inspector General                                                                                 March 2005


including the United States, are not bound by international law to abide by its guidelines.
Instead, the AG operates under the principle of national discretion, with each member deciding
how it will carry out membership obligations. One of the guidelines that members have agreed
to is an AG denial notification procedure, whereby members notify the group when a license for
a controlled item is denied. AG members have also agreed to a "No Undercut Policy," whereby
members agree not to approve an identical export sale without first consulting with the member
issuing the denial notification.

BIS export license application review process for chemical and biological commodities

During FY 2004, BIS received 2,801 chemical and biological export license applications, most
of which were reviewed and processed by CBCD.10 Figure 1 (below) illustrates the total number
of export license applications received by BIS from FY 2000 through 2004 and the subset
processed by CBCD.

Figure 1. Export License Applications Received by BIS

                                18000

                                16000                                                    15506


                                14000
                                                                              12296
       Number of Applications




                                12000      11010      10739      10600
                                                                                                    CBCD
                                10000
                                                                                                    Total
                                 8000                                                               Applications


                                 6000

                                 4000
                                                                                      2801
                                                              1497         1803
                                 2000   1405       1357


                                    0
                                         FY00       FY01       FY02          FY03      FY04


     Source: Bureau of Industry and Security

When BIS receives a license application, either manually or electronically, it is entered into the
Export Control Automated Support System (ECASS).11 ECASS screens all new applications to
determine whether the listed parties have (1) registration numbers in ECASS or need numbers
assigned and (2) any Aflags@ that require the application to be referred to the Office of Export

10
   In FY 2003, a few chemical and biological export license applications were processed by another BIS licensing
division. The vast majority, however, were processed by CBCD.
11
   ECASS is an unclassified system that processes and stores dual-use export licensing information for BIS
headquarters and field offices, the Central Intelligence Agency, and the Departments of Defense, Energy, State, and
the Treasury.
                                                                      2

U.S. Department of Commerce                                                                   Final Report IPE-16946

Office of Inspector General                                                                              March 2005


Enforcement (OEE).12 Applications flagged by the system are simultaneously referred to OEE
and the licensing officers (LOs) in EA. Unflagged applications are referred only to the LOs for
processing.

According to Executive Order 12981,13 BIS has 9 days to conduct its initial review. During this
review, the LO first verifies the export control classification number (ECCN) the applicant
obtained from the CCL. The CCL lists 487 ECCNs for commodities, software, and technology,
14 of which are numbers for chemical and biological commodities (see Figure 2). Each ECCN
contains a brief description of the item(s). Some items are subject to the EAR but not specified
on the CCL. These are designated as AEAR99."14

After verifying the ECCN, the LO reviews the license requirements and license exceptions for
that ECCN. The LO then (1) determines the reasonableness of the end use specified by the
exporter, (2) documents the licensing history of the exporter, (3) documents the licensing history
of the ultimate consignee or end user(s), (4) documents the reason(s) for not referring a license
application to the other agencies (if applicable), and (5) provides a written recommendation on
whether to approve or deny the application. After the LO’s review is completed, the application
is referred to the Departments of Defense, Energy, and State. BIS also provides the Central
Intelligence Agency with the application for review at the same time as the other agencies.




12
   Generally, applications referred to OEE are those involving parties on BIS’ watchlist, as they have been identified 

as warranting increased scrutiny for export license purposes. OEE agents may also put flags on certain parties that

they are interested in seeing, such as parties involved in an ongoing investigation. 

13
   Executive Order 12981, as amended—Administration of Export Controls, December 5, 1995. 

14
   Normally, a license is not required for an item classified as EAR99 unless certain prohibitions apply (e.g., export 

to an embargoed destination) or there is a concern about the end user or end use. 

                                                          3
     U.S. Department of Commerce                                                           Final Report IPE-16946

     Office of Inspector General                                                                      March 2005




Figure 2. Export Control Classification Numbers for Chemical and Biological Items

                                   The Export Administration Act of 1979, as amended, is the primary legislative
       EXPORT
                     authority for controlling the export of goods and technologies that have both
    ADMINISTRATION 
               civilian and military uses. The Act expired on August 20, 2001, but the
         ACT
                      President extended existing export regulations with Executive Order 13222,
                                   dated August 17, 2001, thereby invoking emergency authority under the
                                   International Emergency Economic Powers Act.
       EXPORT

    ADMINISTRATION 
               The Export Administration Regulations control the export and re-export of
     REGULATIONS 
                 specific commercial or dual-use items that have both civilian and military uses.

                                   The Commerce Control List includes commodities, software, and technology
       COMMERCE 
                  subject to control under the EAR, grouped by type of commodity in 10 broad
      CONTROL LIST
                categories, including nuclear materials, facilities, and equipment. Each
                                   category is further subdivided into five product groups.
    EXPORT CONTROL 
               Items within each of the 10 categories are identified by an alphanumeric
     CLASSIFICATION
               ECCN. There are 487 ECCNs on the CCL and each describes a particular
       NUMBERS
                    item or type of item, and shows the controls placed on that item. (See
                                   Supplement No. 1 to part 774 of the EAR.)

           ECCNs
      For Chemical and 
           The CCL includes 14 ECCNs for chemical or biological items.
       Biological Items


    ECCN      Description
    1C350     Chemicals that may be used as precursors for toxic chemical agents
    1C351     Human and zoonotic pathogens and Atoxins@
    1C352     Animal pathogens
    1C353     Genetic elements and genetically-modified organisms
    1C354     Plant pathogens
    1C395     Mixtures and medical, analytical, diagnostic, and food testing kits not controlled by ECCN 1C350
    1C991     Vaccines, immunotoxins, medical products, diagnostic and food testing kits
    1D390     ASoftware@ for process control that is specifically configured to control or initiate Aproduction@ of
              chemicals controlled by ECCN 1C350
    1E350     ATechnology@ according to the AGeneral Technology Note@ for facilities designed or intended to
              produce chemicals controlled by ECCN 1C350
    1E351     ATechnology@ according to the AGeneral Technology Note@ for the disposal of chemicals or
              microbiological materials controlled by ECCNs 1C350, 1C351, 1C352, 1C353, or 1C354
    2B350     Chemical manufacturing facilities and equipment, except valves controlled by 2A226 or 2A292
    2B351     Toxic gas monitoring systems that operate on-line and dedicated detectors therefor
    2B352     Equipment capable of use in handling biological materials
    2E301     ATechnology@ according to the AGeneral Technology Note@ for Ause@ of items controlled by ECCNs
              2B350, 2B351, and 2B352


     Source: BIS and Office of Inspector General



                                                           4
U.S. Department of Commerce                                                                Final Report IPE-16946

Office of Inspector General                                                                           March 2005


Referral of export license applications to other agencies

The Export Administration Act of 1979, as amended, authorizes the Secretary of Commerce to
issue rules and procedures for processing dual-use export license applications. The Act requires
that a determination concerning an export license application be made by the Secretary of
Commerce, without referral to any other government department or agency, to the maximum
extent possible. However, in December 1995, in response to the need for more transparency in
the dual-use export license process, the President issued Executive Order 12981. Specifically, it
authorized the Departments of Defense, Energy, and State and the Arms Control and
Disarmament Agency15 to each review any license application received by Commerce. In
addition, Executive Order 12981 established mandatory escalation procedures to be followed,
when the reviewing agencies disagreed about dual-use export license applications, and defined
the time frames for this escalation process. (See Figure 3).

Currently, the Departments of Defense, Energy, and State review all export license applications
except applications for which those departments have delegated decision authority to
Commerce.16 BIS also sends all chemical and biological license applications to the Central
Intelligence Agency=s Weapons Intelligence, Nonproliferation, and Arms Control Center
(WINPAC) for an end user review.17

Under the Executive Order, the referral agencies (Defense, Energy, and State) must provide a
recommendation to approve or deny the license application to the Secretary of Commerce within
30 days of receipt of the referral and all related required information. To deny an application,
the referral agency is required to cite both the statutory and regulatory basis for denial, consistent
with the provisions of the EAA and the EAR. An agency that fails to provide a recommendation
within 30 days is deemed to agree with the decision of the Secretary of Commerce.

Most export licenses are issued with conditions that require the exporter to abide by certain
restrictions. The conditions are primarily used to control proliferation of the commodity by
limiting the end use or restricting access to the commodity to specific end users. There are 55
standard conditions that BIS can place on an export license. When BIS refers the export license
application to the other agencies, it attaches a list of recommended conditions for the agency to
review. The referral agencies can also recommend additional conditions be placed on the export
license before it is issued. If the reviewing agencies disagree on the license application, the
application goes to the Operating Committee for resolution.

Before an application for a chemical and biological export license application is escalated, any of
the reviewing agencies may choose to address a potential proliferation concern on a particular
application by discussing the application at the SHIELD interagency working group, which is


15
   The U.S. Arms Control and Disarmament Agency was dissolved on April 1, 1999. Its licensing review function
was moved to the State Department.
16
   Energy did not review chemical and biological export license applications until April 2003. It had previously
provided BIS with a delegation of authority to review any such applications on its behalf. That delegation of
authority was rescinded on April 15, 2003, after the agency added more LOs and decided it had the ability to review
all chemical and biological license applications.
17
   In FY 2003, WINPAC did not review all license applications, only those for which an intelligence report on the
end user(s) had not been generated for a specific period of time.
                                                         5
     Figure 3. Dual-Use Export Licensing Process


                     0 Days                                  9 Days                                        39 Days                                  90 Days


                                Pre-License
                                  Check               License, Deny, or Return                      License, Deny, or Return                License, Deny, or Return
                                   (PLC)



                 BIS Initial               Enforce-              Not Referred                                                                                  Post
                 Screening/                 ment
                                                                                                            Shipment
                 Technical                 Review
                                                                                                          Verification
                  Review
                                                             CIA
                                                                    (PSV)
                                                                                  Information

                (Registration                              Decision                                        Decision        Disagree
                     of
                                                                           (1)




6

                Application)

                                            Initial              Referred        Referral Process                                Dispute Resolution Process 

                                             Case                                      CIA               (2)
                                           Analysis                                 Defense                                    OC     ACEP EARB President              

                                                                                     Energy            Recommendations (3)
                                                                                     Justice                                          (4)     (5)
                                                                                                                                                      (6)
                                                                                      State




                                                                                      PLC


       (1)   On or before day 9 of registration, BIS must refer the application or issue, deny, or return without action (RWA) the license.
       (2)   On or before day 39 of registration, the referral agencies must provide BIS with a recommendation.
       (3)   On or before day 40 of registration, the application can be referred to the Operating Committee, which has 14 days to make a recommendation.
       (4)   On or before day 59 of registration, the application can be referred to the Advisory Committee on Export Policy, which has 11 days to make a decision.
       (5)   On or before day 75 of registration, the application can be sent to the Export Administration Review Board, which has 11 days to make a decision.
       (6)   On or before day 90 of registration, the application can be escalated to the President.
       Executive Order 12981 provides several circumstances for stopping these time frames, such as obtaining additional information from the applicant.
     Source: Office of Inspector General
U.S. Department of Commerce                                                                   Final Report IPE-16946

Office of Inspector General                                                                              March 2005


chaired by the Department of State, and has working-level representatives from Commerce
(BIS), DOD, CIA, and Energy.18 The SHIELD group reviews dual-use export license
applications related to the possible proliferation of chemical or biological weapons with the goal
of resolving differences between agencies and thereby precluding the need to escalate license
applications into the formal dispute resolution process.

Dispute resolution process

If there is disagreement on whether or not to approve a pending license application after the 30­
day review period, the application is referred to a higher-level interagency working group called
the Operating Committee (OC). Under Executive Order 12981, the OC has representatives from
the Departments of Commerce, Defense, Energy, and State. Non-voting members of the OC
include appropriate representatives of WINPAC and the Joint Chiefs of Staff. The OC meets
weekly. The Secretary of Commerce appoints the OC chairman who considers the
recommendations of the reviewing departments before making a decision. The OC chair=s
decision does not have to be based on a majority vote.19

Within 5 days of the OC chair’s decision, a reviewing department may appeal or escalate the
decision to the Advisory Committee on Export Policy (ACEP). The ACEP meets monthly if
there are applications to decide and is chaired by the Commerce Assistant Secretary for Export
Administration, and includes Assistant Secretary-level representatives from the Departments of
Defense, Energy, and State. The ACEP also includes non-voting representatives from WINPAC
and the Joint Chiefs of Staff. The ACEP’s decision is based on a majority vote.

Within 5 days of an ACEP decision, any dissenting department or agency may appeal the
majority decision to the Export Administration Review Board (EARB). The Secretary of
Commerce chairs the EARB, and its members include the Secretaries of Defense, Energy, and
State. The Chairman of the Joint Chiefs of Staff and the Director of the Central Intelligence
Agency are non-voting members of the EARB. The EARB=s decision is based on a majority
vote. Finally, within 5 days of this decision, any dissenting agency may make a final appeal to
the President.

End use checks

End use checks are an important component of the export licensing process. They help
determine if the end users or intermediary consignees are suitable to receive sensitive U.S. items
and technology and will likely comply with appropriate end use conditions and retransfer
restrictions. End use checks consist of pre-license checks (PLCs), which are conducted to obtain
information about a foreign end user or intermediary consignee before the approval of a license
application, and post shipment verifications (PSVs), which are conducted after goods have been
shipped. PSVs help determine whether the licensed item or technology was received and is


18
   SHIELD does not serve as an acronym for any phrase. The group uses all capital letters for its name, which is
why it is presented as such in this report.
19
   Per Executive Order 12981, as amended, one exception to this rule involves “. . .license applications concerning
commercial communication satellites and hot-section technologies for the development, production, and overhaul of
commercial aircraft engines. . . ” For these applications, the chair of the OC is to report the “majority vote decision
of the OC” rather than his/her decision.
                                                           7

U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005


being used appropriately by the party named on the license or shipper=s export declaration (SED)
or whether it was diverted to an unauthorized end user.

End-use checks (PLCs and PSVs) are conducted by BIS export control attachés (stationed in
Hong Kong, Abu Dhabi, Beijing, Moscow, and New Delhi), by BIS special agents traveling in
two-person Sentinel Teams, 20 or where these options are not available or not economical, by U.S.
Commercial Service or State personnel stationed in the country where the end-use check is
conducted. Any of the departments (Commerce, Defense, Energy, or State) authorized under
Executive Order 12981, as amended, to make recommendations on export license applications
can request an end-use check.

Chemical Weapons Convention and the Treaty Compliance Division

The U.S. is party to several international arms control, disarmament, and nonproliferation
agreements, including the Chemical Weapons Convention (CWC), an international treaty that
bans the development, production, stockpiling, or use of chemical weapons by its signatories and
provides a verification regime to ensure compliance with its nonproliferation terms. The treaty
affects companies involved in the production, processing, consumption, import, and/or export of
a range of commercial chemicals and precursors. The CWC entered into force on April 29,
1997, and currently 167 countries are state parties to the convention. Of the 50 chemicals on the
CCL that are subject to AG controls, 30 are CWC chemicals.

For these 30 chemicals, there are additional requirements placed on exporters to ensure
compliance with the CWC. For example, in addition to obtaining an export license for a
chemical, the CWC might also require the exporter to file an end-use certificate—a document
provided by the country of destination stating what the chemical will be used for, who the end-
user is, and certifying that it will be used only for purposes not prohibited by the CWC. The
additional obligations on exporters, as required by the CWC, vary depending on the chemical
and the country to which it is being exported. BIS’ Treaty Compliance Division (TCD) is
responsible for ensuring that U.S. industry is in compliance with the CWC. As such, TCD
assists U.S. companies in (1) submitting annual declarations, end-use certificates, and other
reports to both BIS and the Organization for the Prohibition of Chemical Weapons,21 (2)
preparing for on-site inspections, and (3) making determinations on whether chemicals are
subject to CWC reporting requirements.

TCD is also responsible for strengthening international cooperation with the Biological Weapons
Convention (BWC), which prohibits developing, producing, stockpiling, or otherwise acquiring
or retaining biological agents or toxins for non-peaceful purposes. The BWC entered into force
in 1975 and 153 countries are state parties to the convention.




20
 Prior to late 2004, the BIS end use check program was called the Safeguard Verification Program.
21
 The Organization for the Prohibition of Chemical Weapons is the international body created to implement the
CWC.
                                                       8

U.S. Department of Commerce                                                              Final Report IPE-16946

Office of Inspector General                                                                         March 2005


                         OBJECTIVES, SCOPE, AND METHODOLOGY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000, to conduct eight annual assessments of the adequacy of current export controls and
counterintelligence measures to protect against the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern.22 This is the sixth review under the
NDAA requirement.23 The Commerce Office of Inspector General (OIG) conducted this
program evaluation in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency in 1993, and under authority of the Inspector
General Act of 1978, as amended, and Department Organization Order 10-13, dated May 22,
1980, as amended.

Our objectives were to review the adequacy of BIS’ export licensing process to determine
whether it helps deter the proliferation of chemical and biological weapons and prevents the
acquisition of sensitive U.S. technology or technical information by countries or entities of
concern. We did not evaluate the overall outcome of the licensing process and whether countries
or entities were able to illegally acquire biological or chemical commodities by circumventing
the licensing process altogether.

Our scope included determining whether BIS (1) reviews license applications within regulatory
timeframes; (2) properly submits license applications to the other licensing agencies; (3)
adequately manages the interagency dispute resolution process; (4) processes each license
application using information from PLCs and records of exporter compliance with prior license
conditions, and analyzing the cumulative effect of proposed and prior chemical and biological
technology transfers; (5) properly submits denied applications to the AG; (6) incorporates new
AG regulations into the CCL in a timely manner; and (7) performs outreach about export
controls for chemical and biological commodities to the exporting community. Our
methodology included the following:

     x	 Statistical analysis. We evaluated three types of license applications submitted to BIS
         in FY 2003 to accomplish the tasks listed above: (1) a statistically valid sample of 90
         regular chemical and biological applications (out of 1,803), (2) all 17 license
         applications escalated to the OC, and (3) the 23 denied license applications in FY 2003.

     x	 Interviews. To determine the effectiveness of the current export license process and
         obtain their suggestions for improving the process, we spoke with BIS personnel from
         the following groups: (1) Office of Nonproliferation and Treaty Compliance, including
         the Chemical and Biological Controls Division, (2) Regulatory Policy Division, (3)
         Office of Enforcement Analysis, (4) Office of Exporter Services, and (5) the Operating
         Committee Chair. We also spoke with representatives of other organizations, including
         (1) the Chairman of the SHIELD24 at the Department of State about how chemical and

22
   The Offices of Inspector General from the Departments of Agriculture, Health and Human Services, and 

Homeland Security also participated in this review. 

23
   See Appendix C for a list of the reports resulting from the five previous reviews.

24
   The SHIELD is discussed on pages 5 and 21. 

                                                        9

U.S. Department of Commerce                                                           Final Report IPE-16946

Office of Inspector General                                                                      March 2005


         biological applications are reviewed and (2) Department of Agriculture officials about
         chemical and biological items controlled by Agriculture but not listed on the CCL.

     x	 Literature review. We evaluated specific literature during our review including (1)
         prior Government Accountability Office (GAO), Commerce OIG, and interagency OIG
         reports, (2) the BIS FY 2003 and 2004 Annual Reports, (3) the BIS FY 2003 Foreign
         Policy Report, (4) BIS procedures for processing license applications, and (5) relevant
         laws and regulations.

In addition, we followed up on our recommendations from prior Commerce OIG reports related
to the export licensing process and/or export controls for biological agents.25

To coordinate the review of interagency issues and determine the work to be performed by each
OIG team, the eight OIGs involved in this year’s review formed an interagency working group
and held monthly meetings during the review. The eight OIGs decided that each would issue a
report on the findings of its agency review, and all eight would contribute to and approve a
consolidated report on crosscutting issues. We conducted our review from August 12, 2004,
through January 21, 2005. On March 9, 2005, we conducted an exit conference with the Acting
Under Secretary for Industry and Security and other senior BIS officials to discuss the contents
of this report.




25
  U.S. Department of Commerce Office of Inspector General, Bureau of Export Administration: Assessing the
Effectiveness of Export Controls for Dual-Use Biological Agents, RM-6686, September 1995, and U.S. Department
of Commerce Office of Inspector General, Bureau of Export Administration: Improvements Are Needed to Meet the
Export Licensing Requirements of the 21st Century, IPE-11488, June 18, 1999.
                                                     10

U.S. Department of Commerce                                                                     Final Report IPE-16946

Office of Inspector General                                                                                March 2005




                                  OBSERVATIONS AND CONCLUSIONS 


I. 	 Licensing Process for Chemical and Biological Commodities Generally Resulted in
     Timely Decisions in FY 2003, but Some Improvements Are Needed

Proper analysis of individual export license applications is critical to ensure that appropriate
export policies and procedures are followed. We looked at a sample of chemical and biological
license applications submitted in FY 2003 and found that the licensing process is generally
resulting in timely decisions. We found that while Executive Order 12981 and the EAR provide
specific time limits for interagency processing and resolution of disputes involving dual use
license applications, they do not explicitly address a time requirement for the completion of a
license application that is approved by the interagency group and not escalated. At present, LOs
have no time requirement—and could take up to the 90 days allowed under the Executive
Order—for processing license applications once they are returned from interagency review.
With no objection from the interagency group, the license application may be returned to BIS on
the 40th day after registration of the completed license application, with no Executive Order
required action for another 50 days.

Finally, license processing guidance should be consolidated and readily accessible to LOs. The
guidance for reviewing export license applications cited by LOs and BIS management was an
assortment of memos and documents issued over an 11-year period. This guidance is housed in
different places within BIS and not readily accessible to the LOs. In addition, the guidance that
is routinely used by BIS is not always detailed enough to provide specific steps for reviewing a
license application. Clear, complete, and consolidated guidance is needed to formalize current
license application review practices and ensure that they are consistently applied.

A. 	       Review of FY 2003 license applications shows the licensing process is working
           reasonably well

Based on information received from BIS, 1,803 license applications were processed for chemical
and biological commodities in FY 2003. We reviewed a statistical sample of 5 percent of those
cases, or a total of 90 license applications. In addition, we requested information on the 17
escalated license applications referred to the OC in FY 2003 and the 23 denied applications in
FY 2003 for a total of 130 license applications reviewed.

As shown in Figure 4, we divided the license applications into four categories: (1) “Vanilla”26
when they appeared to be complete with few, if any, questions from the interagency group, (2)
“Outliers”, a term we used to describe the applications that were returned without action,
pending at the time of our sample selection, or incorrectly included in our sample, (3)
“Escalated” when the applications were referred to the OC due to interagency disagreement, and
(4) “Denied” when the applications were denied. The escalated applications are discussed in
more detail in Chapter II of this report (see page 21). With regard to the denied applications, we
determined that BIS and the other licensing agencies had appropriately denied the applications,
in accordance with the criteria set forth in the EAR. Also, BIS was generally timely in its
issuance of the final denial decisions after the applicants’ mandatory 45-day appeal period had

26
     Vanilla is a term used by BIS and the other licensing agencies to describe a straightforward license application.
                                                            11

U.S. Department of Commerce                                                                     Final Report IPE-16946

Office of Inspector General                                                                                March 2005


concluded. We found no significant problems with the denied applications and, in fact, these
applications indicate that the export licensing process for chemical and biological commodities is
working as intended.

                               Figure 4. License Applications Reviewed
                                  Type of       Number of      Percent of
                                 application   applications       total
                                Vanilla             82           63%
                                Outliers             8             6%
                                Escalated           17           13%
                                Denied              23           18%
                                Total              130           100%
                                Source: OIG

Figure 5 explains why the 8 outlier applications noted above were excluded from our analysis.

 Figure 5. Outlier License Applications Excluded from Analysis
             Description               Number                      Reason
  Returned without action (RWA) 27        6       Average days to process 26; no data
                                                  available for comparative purposes
                                                  other than total days from BIS receipt
                                                  to RWA issuance.
  Pending                                 1       Application was in pending status at
                                                  time of sample selection.
  Handcuffs to Norway                     1       Was not a chemical or biological
                                                  commodity and was incorrectly
                                                  included in the list of applications from
                                                  which the sample was selected.
  Total                                   8
     Source: OIG

Our in-depth analysis of the remaining 82 license applications identified some issues that require
BIS’ overall attention.

Analysis of license applications found most were processed in a timely manner

Our calculation of the total days to process a license application was based on information
contained in the referral history section of BIS license applications. Total days were calculated
from the date of receipt of the license application until the day reviewing staff completed final
signoff. Total days were then adjusted for the number of days a license application was placed in
hold without action (HWA) status, if any. 28 In our review of the 82 license applications, we


27
   RWA is used to return a license application to the applicant if the applicant has failed within 20 days to provide 

additional information that BIS has requested in order to process the application. RWA can also be used if (1) 

during initial evaluation of an application, an LO determines that a license is not required, (2) the applicant requests 

the application be returned, or (3) the items are not under Department of Commerce jurisdiction.

28
   License applications can be put on HWA when BIS is (1) waiting on information from an exporter, (2) at the 

direction of a division or office director, or (3) in accordance with Executive Order 12981. 

                                                           12

U.S. Department of Commerce                                                                Final Report IPE-16946

Office of Inspector General                                                                           March 2005


found the average time to refer the application to the interagency group was 3.6 days with only
one case taking longer than the 9-day requirement.

The average time to process these license applications from receipt to the completion of
interagency review was 43.7 days. Although this average time was reasonably close to the 40­
day BIS standard or internal goal for processing license applications, we found that 34 cases, or
41 percent, took longer than 40 days. Eight of those license applications took between 41 and 43
days to process. We did not assess these further since they were within 1-3 days of meeting the
BIS standard or internal goal. However, Figure 6 provides a breakdown of the reasons for delay
in the remaining 26 license applications (32 percent) with review times of 44 days or more.

             Figure 6. Reasons for License Processing Times That Exceeded 44 Days29
                                                                   Total license
                                Reason for delay                   applications
              Waiting for CIA information                               13
              Delayed in CBCD 11-34 days after interagency               7
              approval
              Waiting for CIA and OEE information                        3
              Waiting for OEE information                                3
              Total                                                     26
              Source: OIG

Interagency and OEE processing of license applications is generally timely

In our review of the 82 license applications, we found that all interagency referrals to the
departments of Defense, State, and Energy were returned to BIS within the 30-day requirement.
It took 23.3 days on average for information on 56 cases referred to the CIA during FY 2003 to
be returned to BIS. A total of 17 of those license applications sent to CIA, or 30 percent, took
longer than the 30-day requirement.30

In applications referred to OEE, the total days to receive OEE’s comments averaged 10.3 days,
although 14 applications, or 27 percent, were greater than OEE’s self-imposed 6-day
requirement31 for reviewing license applications. A summary chart follows on the next page.




29
   License processing times ranged from 45 to 112 days after HWA time was deducted.
30
   Defense, State, and Energy each have 30 days, concurrently, to review referred licenses. While Executive Order
12981 does not specifically provide a time requirement for CIA’s review of referred licenses, BIS and CIA have
agreed to aim for a 30-day turnaround for CIA’s input. The time requirement for OEE review is 6 days. The goal
for completing the initial overall review is 39 days (9 days to interagency referral and 30 days for interagency
[including CIA]) review.
31
   The 6-day requirement was contained in the performance plans of OEE analysts, but was not drawn from any
overall BIS guidance or by direction of the Executive Order. This 6-day requirement is different, and preceded, the
new requirement put in place in July 2004 and discussed in detail on pages 14-15.
                                                        13

U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005


submit its recommendations to EA within 6 days of receiving applications, including the reason
why PLCs or other actions are warranted. If OEE and EA disagree on an application, the EE and
EA directors or the Under Secretary must resolve the disagreement before the 9-day requirement
and referral to the other licensing agencies. If OEE requests a PLC for an application, the Under
Secretary has established a certain number of days for the foreign posts and/or BIS attaché to
complete the PLC.34 In addition, a pending PLC or other OEE flag on an application could delay
actual issuance of a license after interagency approval.

Delays in CBCD processing of license applications were not always easily explained

Seven license applications, or 8 percent, were delayed by CBCD from 11 to 30 days after
interagency approval, as shown in Figure 9.

                                  Figure 9. Delays in CBCD after
                                  interagency approval
                                   Application Total Days Days in
                                      No.      to Approval CBCD
                                       1            70        20
                                       2            58        30
                                       3            52        20
                                       4            51        23
                                       5            47        15
                                       6            45        13
                                       7            45        11
                                    Source: OIG

We asked CBCD management to explain the delays. However, it was difficult for CBCD
management to explain all seven cases, as some of the LOs that processed these applications
have since left BIS and the records in ECASS are not detailed enough to always reconstruct what
happened in the processing of an application. As a general explanation for delays, CBCD
management noted that in very rare cases a license application might remain in the
countersigner's queue for more than a week. Occasionally, they reported, the countersigner may
need to send the license applications back to the LO for clarification of conditions, insertion of
inadvertently excluded caveats, or for correction. In other cases, a policy change may make it
impossible to countersign an application until CBCD senior management and/or BIS senior
management take action—this was definitely the case for two of the seven applications above
and, according to CBCD officials, possibly for another two as well. For example, after a meeting
between Commerce and Defense, CBCD agreed to include a condition on all CBCD export
licenses limiting the end-use to that stated on the license application. This agreement
necessitated halting all approvals until the proper language could be worked out.

One senior LO emphasized that sometimes BIS will hold onto an application for a few days past
an application’s return from the 30-day review by the referral agencies in hopes that the case can
be resolved rather than having to refer it to the OC. The senior LO noted that LOs are given the

34
  BIS' Under Secretary specified the following three timeframes for PLCs: (1) most PLCs would be completed in 14
days or less, (2) PLCs in countries without a BIS attaché would be completed in 28 days or less, and (3) PLCs in
China would be completed in 60 days or less. BIS management will intervene if these timeframes are exceeded.
                                                      15

U.S. Department of Commerce                                                    Final Report IPE-16946

Office of Inspector General                                                               March 2005


leeway to use their professional judgment if a case is close to being resolved and permission for
extension is not requested from BIS management. The OC Chair said that he prefers that LOs
and division directors try to work out issues with their counterparts at the referral agencies before
escalating a license application. He said it helps avoid unnecessary escalations even if this
means taking a few extra days.

B. 	   Ninety-day time frame does not provide for prompt processing of “non-escalated”
       license applications

Although Executive Order 12981 and the EAR specify time requirements for the initial license
application review, interagency review, and a total processing time for escalated license
applications, neither includes a specific time requirement for completing a license application
that is approved by the interagency group during the initial interagency review process.

The 90-calendar day timeframe for the review of license applications from their receipt in BIS is
realistic if referral is made to the Operating Committee (OC), Advisory Committee on Export
Policy (ACEP), and Export Administration Review Board (EARB), but no guidance is provided
to LOs to encourage the timely disposition of license applications that are approved without
escalation to the OC. In fact, if these applications are received back from the referral agencies
on the 40th day after receipt of a license application, BIS has an additional 50 calendar days to
review and sign off on the license application, and finally to notify the applicant, without
violating the requirements of the EAR. This could result in unnecessary expense to the exporter
and possibly the end user since the shipment of the affected goods would be delayed pending
receipt of the approved license.

CBCD staff and other BIS officials agree that Executive Order 12981 and the EAR do not
specifically address timeframes for the processing of applications with interagency agreement.
However, they say their mandate is to process applications as quickly as possible after
interagency agreement is reached and that BIS would never take an additional 50 calendar days
to review and sign off on a license application. As mentioned previously, in most cases, BIS is
processing applications in a timely manner. The average for vanilla cases was 43.7 days in FY
2003, meaning that CBCD took just a few days after interagency agreement to finalize
applications. But, as noted in Figure 9, seven license applications were delayed in CBCD
between 11-30 days after interagency approval until final sign off. Even though all seven cases
were completed within the overall specified 90-day timeframe, it is difficult to determine
whether CBCD was timely in the processing of these applications because there is no specific
criteria to use to judge their performance.

Recommendation

BIS should establish specific timeframes for reviewing and signing off on license applications
after approval by the referral agencies.



BIS, in its response to our draft report, agreed with this recommendation.


                                                 16

U.S. Department of Commerce                                                                 Final Report IPE-16946

Office of Inspector General                                                                            March 2005


While providing a basic framework for analysis, the 8-point memorandum was written prior to
the issuance of Executive Order 12981 on December 5, 1995. In addition, since Export
Administration Act discussions were still underway on the date of the memorandum’s issuance,
it speculates on the final changes to be made in the Act and their subsequent impact on the LO’s
review of license applications. These are the appropriate areas that LOs should focus on during
reviews, but guidance on how to accomplish these objectives is lacking. For instance, the third
item tells the LO to “characterize the end user,” but it does not say how the LO should acquire
the information beyond what was submitted by the applicant (e.g., researching the entity on the
Internet) or what types of questions the LO should ask exporters or end users in specific markets.
The fifth item tells LOs to identify any special conditions that Commerce suggests should be
placed on a license, but it does not indicate the criteria the LO should use in making that
decision. Such information would be especially helpful to the referral agencies as they do their
own license reviews.

Additional guidance was found, but is not being used

To supplement the 8-point analysis memorandum, CBCD issued specific guidance for LOs as a
reference for reviewing export license applications for biological and chemical commodities.
CBCD=s guidance provides some additional instructions to that in the 1994 memorandum. For
example, the guidance states that “university” is not a complete description of an end user unless
the LO specifies the school or laboratory within the university. CBCD=s guidance also requires
that LO notes35 include supporting documentation for any decision made as a result of contacts
with various individuals and organizations. CBCD also created a “Commodity Classification
and License Determination Guide” to assist LOs in determining the appropriate ECCN for items
controlled for chemical and biological weapon proliferation reasons. In the absence of
comprehensive policies and procedures for all LOs, we compliment CBCD for creating useful
reference materials for LOs to use during their license application analysis. However, we are not
sure if LOs are using this guidance since when we asked them for the criteria used for their
review of license applications, LOs did not make reference to it. We knew about the CBCD
guidance only because it was discussed in our 1999 report.36 When we asked for a copy of the
CBCD guidelines, one LO stated that it was saved in an old version of word processing software
and was not accessible to him.

On March 31, 1999, EA officials implemented new procedures that emphasized the importance
of obtaining sufficient information before processing a license application and identified the
types of facts and details that must be documented in LO notes. Once again, however, when
asked for the criteria used to review license applications, LOs did not refer to this newer
guidance. We knew to ask for a copy only because it was mentioned in our 1999 report.

The Licensing Officers Operating Manual has been discontinued and planned electronic library
has not been developed

In our 1999 report, we noted that the policy and procedures used by LOs varied. At that point,
we noted that the Licensing Officers Operating Manual (LOOM), dated October 1, 1995, had
35
   The electronic data file for license applications includes a section for the LO to include comments and notes of 

importance for additional consideration by reviewers. 

36
   U.S. Department of Commerce Office of Inspector General, Bureau of Export Administration: Improvements Are 

Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488, June 18, 1999. 

                                                         18

U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005


become an assortment of outdated or superceded documents and was not user friendly. We also
reported that the contents of individual LOs’ operating manuals varied.37 EA officials said after
the LOOM was modified, in 1995, per Executive Order 12981, it was not updated again for
almost a year-and-a-half because of resource constraints. Subsequent to our 1999 review, the
LOOM was discontinued.

BIS officials also told us in 1999 they would explore the creation of an electronic library to store
new policies and procedures. The library was envisioned to include an on-line LO manual and
policies and procedures for commodity classifications, license application analysis, license
determinations, country-specific policies, referral policies, and record keeping. During this
review, we learned from EA staff that the electronic library was only partially developed, and a
lack of funding and resources prevented its actual implementation.

Conclusions

According to our interviews with LOs in CBCD, they primarily rely on the April 1994 8-point
analysis memorandum to review export license applications. During our review we found that
there is other BIS guidance, such as the CBCD specific guidelines, the March 1999 additional
guidance, and the criteria for when HWA/RWA can be applied, which LOs clearly are not aware
of and/or are not using. Given how difficult it was for us to find the official BIS guidance
(beyond the 8-point analysis memorandum) for the review of export license applications, it
certainly cannot be easy for busy LOs to find it either. Furthermore, the project that would have
centralized such guidance in an electronic library was not completed and the handbook that
previously kept all guidance in one place, the LOOM, is outdated and no longer in use.

Given BIS’ important regulatory role as the licensing agency for dual-use exports, guidance for
the processing of license applications should be better managed. To ensure that all LOs,
including new ones, have clear and complete guidance for processing cases, BIS should develop
and maintain updated, consolidated, and comprehensive written guidance or an internal
operations handbook, to formalize license application review practices. This guidance or
handbook should be readily accessible to all employees involved in the licensing process. EA
should also develop a long-term plan for maintaining the guidance and/or handbook, including
responsibility for ensuring it is kept up-to-date.




37
  The OIG team conducting the 1999 review also had difficulty getting a complete up-to-date LO manual. On
November 20, 1998, we were provided a copy of the operating manual from the Director of the Office of Exporter
Services, who informed us that it was a complete and updated copy. However, in March 1999, we learned that
several key sections of the operating manual, such as case analysis, were missing from our copy. On March 25,
1999, the Office of Exporter Services provided us with the missing sections.

                                                      19

U.S. Department of Commerce                                                  Final Report IPE-16946

Office of Inspector General                                                             March 2005


Recommendation

Develop and maintain clear, consolidated, and up-to-date guidance, or an internal operations
handbook, to strengthen current license application review practices and help ensure that they are
consistently applied.



In responding to our draft report, BIS stated that it agreed with this recommendation.




                                                20

U.S. Department of Commerce                                                                Final Report IPE-16946

Office of Inspector General                                                                           March 2005


II. 	      Review of License Applications by the SHIELD Works Reasonably Well, But the
           Operating Committee Needs to Sustain Recent Improvements in Timeliness

License applications for chemical and biological commodities have the benefit of an additional
level of review by the Chemical and Biological Weapons Control Group, an interagency working
group also known as SHIELD. At the SHIELD meetings, the member agencies share
viewpoints, intelligence information, and clarifications on statutory and regulatory authority to
help resolve differences and prevent the need to escalate applications to the OC. SHIELD helps
ensure that applications are escalated to the OC only because of true disagreement between the
agencies. We found that OC was not timely in its decisions on FY 2003 escalated chemical and
biological license applications. Specifically, there were 17 applications escalated in FY 2003,
and the average time to reach a decision was 51 days in the OC. Times for the current OC Chair
to make a decision on escalated applications reportedly improved in FY 2004. This
improvement in the timeliness of OC decisions should be sustained.

A. 	    The SHIELD review process ensures that chemical and biological license
        applications are appropriately vetted before escalation to the Operating Committee

SHIELD is chaired by a Department of State employee in State’s Office of Chemical, Biological,
and Missile Nonproliferation. Currently, the group meets weekly and is made up of working-
level representatives from State, Commerce (BIS), DOD, CIA, and Energy. Each week,
SHIELD reviews chemical and biological license applications that are between 16 and 22 days
old38 to help ensure that U.S. exports do not contribute to chemical and biological weapon
programs of concern. Because of the volume of chemical and biological license applications,
SHIELD does not discuss all applications at its meetings. However, all applications are available
to be discussed should an agency want to. Generally, applications that do not involve concern or
disagreement are not put on the SHIELD agenda. Applications that are difficult to decide or that
lack consensus among the member agencies are put on the agenda for a more intense review and
discussion.

When reviewing chemical and biological license applications, SHIELD (1) attempts to determine
the legitimacy of the end user through intelligence reports; (2) reviews the end user’s web site
and other information to determine the bona fides of the end user; (3) identifies and may review
previously approved licenses to the same end user; (4) determines that the item and end use
match; (5) evaluates other agency recommendations, and (6) requests either a PLC or PSV, if
necessary. The dialogue and information sharing between the agencies usually result in a
consensus opinion either to approve (with conditions) or deny an application. Each agency puts
its opinion into ECASS, and BIS proceeds to either issue or deny the license application. In
cases where agencies have differing recommendations, the application is escalated to the OC.

During FY 2003, SHIELD met once every three weeks and was chaired by a different State
employee than the current chair. By meeting every three weeks, SHIELD was not able to review
all of the applications—only those that a member agency asked to be put on the agenda were

38
  Between 16 and 22 days since the applications were referred by BIS to the other agencies. The benefit of this
timeframe is that by 16 days, agencies have had an opportunity to review the application and determine which
applications might need to be reviewed/discussed in depth. Additionally, if an application is 22 days old and
requires discussion at a second SHIELD meeting, there is still time to do so before the 30-calendar day requirement
for interagency review has been reached.
                                                        21

U.S. Department of Commerce                                                                Final Report IPE-16946

Office of Inspector General                                                                           March 2005


discussed. Further, because of the 30-day deadline for interagency review and the occasional
timing issues in scheduling SHIELD meetings, such as holidays or other conflicts, some
applications that might have benefited from the interagency discussion at SHIELD were not
reviewed by the working group. As a result, some applications were escalated to the OC
unnecessarily because the 30-day time limit had been reached before the case made it to
SHIELD. The current OC chair said he saw applications escalated in 2003 that did not involve
meaningful interagency disagreement and that could have been resolved through a discussion
between agencies or by obtaining additional documentation from the exporter.

The current SHIELD chairman took over in July 2003, but he did not change to weekly meetings
until March 2004, after it had become clear that more frequent meetings were necessary for all
applications to be appropriately vetted. The OC chair said he has seen an improvement in the
types of escalated chemical and biological cases since SHIELD started reviewing all
applications. Applications being escalated now center on true disagreement between the
agencies and are appropriate for the OC.

B.         Recent Operating Committee changes should result in more timely decisions

The OC has representatives from State, Commerce, DOD, and Energy, all of whom are
empowered to vote and make decisions of behalf of their respective agencies. The CIA is a non­
voting member of the OC and provides necessary intelligence information to the committee. The
OC meets once a week the first three weeks of each month. The Advisory Committee on Export
Policy (ACEP) meets once during the last week of the month, but only when it has applications
that have been escalated to it. Per Executive Order 12981, the OC Chair has 14 calendar days to
consider the positions of the agencies and render a decision. Should any agency disagree with
the OC Chair’s decision, it has 5 calendar days to appeal the decision to the ACEP.39

OC was not timely in its decisions on FY 2003 escalated chemical and biological license
applications

In FY 2003, 17 chemical and biological export license applications, or approximately 1 percent
of the 1,803 license applications submitted, were escalated to the OC for resolution. Many of the
escalated applications involved chemicals being exported for use by the Chinese semiconductor
industry. There is a concern among some of the agencies that such chemicals are at risk of
diversion to chemical and biological weapons programs. The OC Chair speculates that there
might be fewer chemical and biological export license applications escalated in the future
because of the understanding on end-use visit cooperation between the U.S. Department of
Commerce and the Ministry of Commerce of the People’s Republic of China. Under the new
understanding reached in April 2004, end-use checks should be easier to conduct, and as a result,
the U.S. government should get increased insight into where chemicals being exported to China
are ending up and what they are being used for. Assuming the end-use checks do not raise
further questions about the end users and end use, fewer such applications may need to be
escalated in the future.

BIS officials told us the new understanding is working and end-use checks are being conducted
without the delays and problems previously encountered. One of the FY 2003 applications

39
     For background information on the escalation process, the OC, and the ACEP, see pages 5-7.
                                                         22

U.S. Department of Commerce                                                                Final Report IPE-16946

Office of Inspector General                                                                           March 2005


escalated to and approved by the OC Chair, contingent on a favorable PLC, did not result in a
license being issued shortly after the OC Chair’s decision, as is the usual course of events.
Instead, it was pending from August 2003 until December 2004, when a PLC of the end-user in
China was finally completed as a direct result of the new understanding. The license was finally
issued in December 2004.

All 17 of the escalated applications were ultimately approved by the OC Chair, and none of the
agencies chose to appeal the OC Chair’s decisions. Thus, the ACEP did not review any chemical
and biological export license applications in FY 2003. In assessing the timeliness of the OC’s
work, we found the OC’s 14-calendar day deadline was not met for any of the 17 escalated
applications. The average time for the 17 applications was 51 days in the OC, with 5
applications taking more than 100 days to adjudicate. In 3 of these 5 extreme cases, the
documentation shows the then OC Chair took no action for an extended period of time. For the
other 2 applications, the OC was waiting on a PLC and did not use the HWA option to stop the
clock.

The 14-calendar day requirement appears to be quite difficult to meet. An OC decision could be
reached in 10 days as long as the OC Chair and the members have all the information needed to
make a decision at the first meeting where the application appears on the agenda. But frequently
a second meeting is necessary to discuss the application and in FY 2003, the former OC Chair
routinely did not ask for agency votes or make decisions until the second meeting that an
application was on the OC agenda. Should an application be escalated around the time of the
ACEP meeting (the week the OC does not meet), it could be 14 days before it is even put on the
OC agenda for discussion. We believe a more realistic standard is 21 days for the OC Chair to
render a decision.40 However, in FY 2003, even using our revised standard, OC decisions were
still not close to being timely—51 days versus our more realistic standard of 21.

Changes made by the current OC Chair should improve timeliness

The current OC Chair has implemented some changes to help reach the Executive Order
requirement of 14 days. The former OC Chair left the position effective April 1, 2003. The
current OC Chair assumed the position on November 1, 2003, after a 7-month period with two
successive interim chairs. The changes the current chair has instituted were put in place after the
period of our review. Thus, we did not review the data to verify recent reported gains in
timeliness.

The current OC Chair’s first change was to require agencies to come to the OC meetings ready to
discuss in depth and vote on an application the first time it was on the agenda—making it
theoretically possible to meet the 14-day requirement for an OC decision. If the members have
enough information, they can vote and the OC Chair can make a decision immediately.
Previously, applications were not routinely voted on until the second meeting they were on the
agenda. The new chair also has declared he will not wait longer than three weeks to obtain
documentation needed from an exporter. Should an exporter not submit the documentation by
the time the three weeks are up, the chair will RWA the application. According to the current

40
  Making a change from 14 days to 21 for the OC to reach a decision would require a change to the Executive
Order. Given the intricacies involved in taking such an action, we do not advocate BIS pursuing a change in the
Executive Order for this reason alone.
                                                        23

U.S. Department of Commerce                                                                     Final Report IPE-16946

Office of Inspector General                                                                                March 2005


chair, the former chair was more lenient in waiting for documentation before using the RWA
option.

We did not evaluate OC timeliness for escalated chemical and biological applications after FY
2003 (the period of our review), but timeliness has reportedly improved. For example, according
to the BIS FY 2004 Annual Report, the average time to reach a decision on all escalated
applications in FY 2004 was 22 days. In FY 2003, with 6 months under the former OC Chair
and 6 months with interim chairs, this average was reportedly 45 days.41 BIS should work to
sustain this significant improvement in the timeliness of OC decisions through continuing
attention to fine tuning the process and implementing improvements such as those put in place
by the current OC Chair.




41
     Both averages include all escalated applications, not just chemical and biological applications.

                                                            24

U.S. Department of Commerce                                                                Final Report IPE-16946

Office of Inspector General                                                                           March 2005


III. 	   Cumulative Effect Reviews Are Not Being Performed for Chemical and Biological
         Export Licenses

Cumulative effect reviews look at the impact of proposed exports when added to other past
exports to countries and entities of concern. Approval of a single export license may not result in
a significant increase in strategic capability of a country or entity of concern, but approval of
multiple licenses combined with diversion of strategic items from other countries, the provision
of unlicensed items, and/or legitimate shipments from foreign suppliers could improve a
country’s ability to build a weapon of mass destruction. BIS may not have sufficient intelligence
data to know all commodities acquired by end users, but it should trace historical patterns and
exports of items it controls.

BIS had seven LOs reviewing 1,803 chemical and biological license applications in FY 2003.42
These LOs never determined the cumulative effect of prior technology transfers made to the end-
users listed on those license applications. LOs said their long-term institutional knowledge of
goods and technologies exported to end-users must substitute for cumulative effect analyses,
because BIS lacks the systems and resources to perform such reviews. Additionally, BIS does
not receive cumulative effect assessments from other agencies during the interagency license
application review process.

A. 	Congress and others have emphasized the importance of cumulative effect analyses

In numerous reports and Congressional hearings, members of Congress and others have shown
interest in the use of cumulative effect analysis to enhance the export control process.

     x	 In June 1999, Inspectors General from the Departments of Commerce, Defense, Energy,
         State, and the Treasury, and the CIA, testified that additional cumulative effect analyses
         would improve the license application process.43 The Deputy Inspector General for the
         Department of State said assessment of the cumulative effect issue required resources and
         coordination from various federal export licensing departments and agencies and
         congressional direction. To date, no such assessment has been conducted. The
         Department of Commerce IG recommended in June 1999 that BIS work with the
         intelligence community, including CIA, Defense, and Energy, to develop a method to
         analyze and track the cumulative effect of dual-use exports to specific countries and
         regions. As of March 2005, this mechanism had not been developed.

     x	 In April 2001, a congressionally funded study44 recommended that the Bush
         Administration employ a shared information management system for processing license
         applications that would be responsive to current business cycles and allow analysis of
         cross-cutting issues and cumulative effects. The study group, chaired by four members
         of Congress,45 recommended: (1) increasing appropriations for U.S. intelligence services

42
   There were seven LOs in CBCD FY 2003. Three have since left, but, according to BIS, only one has been 

replaced to date due to budget constraints. As a result, there are currently only 5 LOs in CBCD. 

43
   Hearing Before the Committee on Governmental Affairs, United States Senate, June 23, 1999. 

44
   The Henry L. Stimson Center and the Europe Program of the Center for Strategic and International Studies, Study 

Group on Enhancing Multilateral Export Controls For U.S. National Security, Final Report, April 2001.

45
   The Study Group was chaired by four members of Congress: Senator Michael B. Enzi (R-WY), Senator Jeff

Bingaman (D-NM), Congressman Christopher Cox (R-CA), and Congressman Howard L. Berman (D-CA).

                                                        25

U.S. Department of Commerce                                                              Final Report IPE-16946

Office of Inspector General                                                                         March 2005


        to enhance monitoring and analysis of technology transfers and (2) enhancing intra-
        industry cooperation to manage and share information on compliance measures, suspect
        end-users, and patterns of technology transfer.

     x	 In February 2002, the GAO found that the Executive Branch does not have a sound
         analytical basis for justifying the current export controls on semiconductor manufacturing
         equipment to China. Specifically, it said that U.S. agencies had not assessed the foreign
         availability and cumulative effects on U.S. national security interests of exporting such
         equipment to China.46 GAO recommended that the Departments of Commerce, Defense,
         and State complete this analysis and update policy and develop new controls, if
         appropriate, for protecting U.S. security interests.

In addition, Congress has been concerned for many years that the interagency licensing
community lacks an integrated mechanism to conduct cumulative effect analyses of dual-use
and/or munitions technology transfers. Despite a recommendation from the Commerce OIG in
199947 and a National Defense Authorization Act for Fiscal Year 2000 requirement that the
Secretary of Defense assess the cumulative impact of licenses granted by the U.S. for exports to
countries and entities of concern, neither BIS nor any of the other licensing agencies has
determined how cumulative effect reviews can be performed in an effective and efficient
manner. Until this happens, cumulative effect information cannot be factored into the export
license review process for chemical and biological commodities.

B.      BIS lacks the systems and resources to perform cumulative effect analyses

The seven LOs in CBCD reviewed the 90 applications in our sample of FY 2003 chemical and
biological export license applications, in accordance with BIS’ 8-point analysis memorandum
(see page 17). The 8-point memorandum, the CBCD LOs’ analysis of the bona fides and
licensing history of individual end-users and the appropriateness of the end-uses, and input from
the intelligence community provide the primary information on likelihood of proper use or
diversion. Cumulative effect analysis can supplement this information. The current five LOs48
told us they do not consider the cumulative effect of prior and proposed exports to individual
foreign countries and end users because: (1) BIS’ current licensing process does not require LOs
to perform cumulative effect reviews, (2) BIS’ licensing system cannot input or receive
information to perform cumulative effect reviews, and (3) BIS’ LOs have not been trained to
perform cumulative effect reviews.

BIS licensing process does not require cumulative effect reviews

Current procedures do not require BIS LOs to consider the cumulative effect of prior and
proposed exports to individual foreign countries and end users. We found that the five LOs were
following the 1994 8-point analysis memorandum. LOs said that the 8-point analysis
requirements and the license review process, as a whole, are designed to process many


46
   The General Accounting Office, Export Controls, Issues to Consider in Authorizing a New Export Administration 

Act, February 28, 2002. 

47
   U.S. Department of Commerce Office of Inspector General, Bureau of Export Administration: Improvements Are 

Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488, June 18, 1999. 

48
   BIS lost three LOs in FY 2003, but recently hired a fifth LO to process chemical and biological applications. 

                                                       26

U.S. Department of Commerce                                                                Final Report IPE-16946

Office of Inspector General                                                                           March 2005


applications in a limited time period and not to perform cumulative effect analyses or determine
if multiple exports to any one country or countries could result in weapons of mass destruction.

The 8-points do not require LOs to analyze an applicant’s entire licensing history. The guidance
states that LOs should prepare a “brief background statement, highlighting licensing history
involving the applicant, and/or item, previous working group consultations, and any precedent
setting aspects of the proposed transaction.” LOs typically identify some prior licenses for an
applicant, but they primarily consider diversion issues including the bona fides of consignees and
end users. They sometimes identify all prior licenses for an exporter, consignee, and/or end user,
but only to document how many licenses have been approved. Although BIS expanded its
license application guidance in 1999, the new guidance still does not require LOs to perform
cumulative effect analyses. LOs include only the previous licensing history of approvals/denials
for item(s) and/or consignees as appropriate.

Even if the five LOs wanted to perform cumulative effect analyses, it is unlikely that they would
have the time to do so because CBCD receives too many applications to perform such reviews
under current circumstances. From FY 2001 to 2004, the number of chemical and biological
license applications was 1,357, 1,497, 1,803, and 2,801 respectively. In addition, the division
has received an increasing number of commodity classifications49 from FY 2001 to 2004: 160,
991, 488, and 903 respectively. Because of the application and commodity classifications
increases, the division is now sending approximately 20 percent of applications it receives to two
other BIS divisions for processing. And, with only five LOs in the division, no meaningful
cumulative effect analyses can be done.

BIS licensing system cannot input or receive cumulative effect information

BIS currently uses ECASS, which was developed in 1984, to process applications, but it is not
suited for the current era of license processing. Today’s licensing systems need advanced query
capabilities, expanded text capabilities, modern interfaces, online access to exporter technical
specifications, and access to outside commercial databases. ECASS lacks all of these functions.
One LO emphasized the need for databases of foreign end-users, such as the international Dun
and Bradstreet database. But, ECASS cannot read or download such databases. Thus, LOs must
search information and databases off-line.

LOs also complain about ECASS containing multiple codes for some exporters, consignees, and
end users, making it difficult to ensure that all prior licensing history is available. Specifically,
over the years, BIS has created multiple ECASS codes for some applicants, consignees, and end
users. For example, “ABC Corp.” may also be coded as “ABC Corporation,” forcing LOs to
spend precious time searching and analyzing multiple codes and licenses. Unless LOs perform
time-consuming analyses of prior licenses, they cannot determine how much of each commodity
has been exported to specific consignees and end users.

One LO also said a sophisticated licensing system should include access to the actual shipments
of dual-use chemical and biological commodities, as well as shipments of chemical and
biological commodities on the U.S. Munitions List and foreign military and third-country sales.
Currently, LOs do not have access to such information. For example, export licenses are valid

49
     BIS receives requests from companies to classify commodities, technology, or software included on the CCL.
                                                         27

U.S. Department of Commerce                                                  Final Report IPE-16946

Office of Inspector General                                                             March 2005


for two years, but LOs do not know whether items listed on a license have ever actually been
shipped. Currently, BIS does not request shipment information from exporters, consignees,
and/or end-users unless specifically requested in license conditions.

The U.S. Customs and Border Protection (CBP) collects information on shipments made under
munitions licenses issued by the State Department, but it does not do so on dual-use licenses
issued by the Commerce Department. To receive such information, CBP would have to
continually determine what dual-use commodities have been shipped to foreign countries under
Commerce licenses. However, BIS does not require CBP to continually monitor the activity
under Commerce licenses. BIS holds exporters responsible for keeping track of controlled
shipments and ensuring that license limits are not exceeded during the two-year life of the
license. LOs emphasized that if better shipment information and software were available, they
could perform trend analyses of technology transfers.

The lack of information on actual shipments is not a new problem. For many years, federal
agencies responsible for enforcing U.S. export laws and compiling U.S. trade statistics could not
obtain accurate and timely data on exports. In 1999, in an attempt to correct the problem, the
U.S. Customs Service, predecessor to CBP, and the Bureau of the Census established the
Automated Export System (AES) to allow exporting companies to electronically enter data on
shipments and provide information to help detect export violations. In 2002, BIS had
discussions with CBP and Census, about providing shipment information to BIS and other
interagency personnel. CBP and Census told BIS in 2002 that shipment information could be
provided, but that software development and resources from all parties would be required to
provide such information. More recently, in 2004, BIS enforcement personnel have obtained
access to CBP’s Automated Targeting System (ATS), which now allows them the capability to
search AES for shipments to specific countries. This is a major improvement for enforcement of
license applications, but it could also help LOs in their review of license applications by
providing them with information on previous shipments. Therefore, we recommend that BIS
assess the feasibility of providing LOs with the information housed in ATS and AES.

BIS LOs are not trained to perform cumulative effect analyses

The LOs in CBCD said even if they had more time per application and a sophisticated licensing
system, they would need comprehensive training to perform cumulative effect reviews. They
noted that CIA/WINPAC has a training school that teaches comprehensive license application
review techniques. The LOs told us that they would benefit from such training. CIA/WINPAC
officials agree that BIS LOs could benefit from selected training such as trend analyses, but they
said BIS would need to obtain top-secret clearances for its five LOs to attend CIA training. A
BIS official said that under current fiscal restraints, such clearances would be prohibitively
costly.




                                                28

U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005


Recommendation

Assess the feasibility of providing LOs with the information housed in the Automated Targeting
System and Automated Export System for use in their review of license applications.



In the Acting Under Secretary’s March 30, 2005, response to our draft report, the bureau stated
that it agreed with this recommendation. BIS also said that, to date, the bureau has not been
appropriated funds by Congress to conduct cumulative effect analyses.

C.      Licensing referral agencies are not performing cumulative effect analyses

During congressional testimony on June 23, 1999, both the Chairman and Ranking Minority
Member of the Senate Committee on Governmental Affairs expressed grave concern that the
licensing community does not consider the cumulative effect of all technology transfers and
identify a country or purchaser seeking components for a weapon of mass destruction, though
each commodity might be benign by itself.50 However, BIS and CIA have emphasized that such
analyses are not currently feasible because all the available data sources cannot be quickly
consolidated or are not available when processing chemical and biological export license
applications. Although one licensing agency performs limited cumulative effect analyses of
some chemical and biological license applications, the federal government lacks an integrated
capability to analyze all license applications and exports to different countries.

Licensing agencies perform limited cumulative effect analyses

Probably the agency considered most likely to perform cumulative effect analyses is
CIA/WINPAC, which is charged with collecting and analyzing intelligence information.
However, in practice, CIA simply screens all chemical and biological export license applications
and only provides intelligence on those applications that might have some proliferation concerns.
CIA officials told us that their role is to provide intelligence and not to perform cumulative effect
analyses.

The Department of Energy does perform some limited cumulative effect analyses. Energy’s
seven laboratories conduct limited cumulative effect assessments for nuclear dual-use exports,
but there is no coordinated effort to conduct such assessments for all commodities. The
Department of Defense has a congressionally mandated requirement to perform annual
assessments of the total effect of transfers of goods, munitions, services, and technology on U.S.
security, but it has yet to perform such reviews.51 Notwithstanding the lack of comprehensive
cumulative effect analyses, both BIS and CIA officials stated that all chemical and biological
license applications are thoroughly reviewed, including the bona fides of all end users, and that
current intelligence is brought to bear on all applications.




50
   Hearing Before the Committee on Governmental Affairs, United States Senate, The Inspectors General Report on 

the Export-Control Process for Dual-Use and Munitions List Commodities, June 23, 1999.

51
   National Defense Authorization Act for Fiscal Year 2000, section 1402. 

                                                      29

U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005


A major factor hindering cumulative effect analyses by the licensing agencies is outdated
automated systems. In a March 2002 report, the interagency OIG team found that the dual-use
export licensing process involves multiple automated systems owned and operated by different
federal licensing agencies. 52 Many of those systems are ineffective for the present era of export
license processing because they have varying security standards and rely on cumbersome manual
and paper-based processes. There is no comprehensive database of export information to help
federal agencies assess the cumulative effect of multiple exports. Thus, we must reiterate our
recommendation, first offered in our 1999 report, that BIS work with the intelligence
community, including CIA, Defense, State, and Energy, to develop a method to analyze and
track the cumulative effect of dual-use exports to specific countries and regions of concern.

Recommendation

Work with the intelligence community to develop a method to analyze and track the cumulative
effect of dual-use exports to countries and entities of concern.



BIS, in its response to our draft report, agreed with this recommendation. The bureau also stated
that chemical and biological license applications are thoroughly reviewed, including the bona
fides of all end users, and that current intelligence is brought to bear on all applications,
notwithstanding the lack of comprehensive cumulative effect analyses.




52
  Interagency Review of Federal Automated Export Licensing Systems, prepared by the Offices of Inspector General
of the Departments of Commerce, Defense, Energy, State, and Treasury, March 29, 2002.
                                                      30

U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005




IV. 	   Recent Improvements in the Timeliness of Changes to the Commerce Control List
        Need to Be Maintained

The Australia Group annually recommends new chemical and biological items for control, but it
takes months for BIS and the other U.S. licensing agencies to place newly regulated items on the
CCL. As a member of multilateral organizations, the U.S. is obligated to implement decisions in
a reasonable time period. However, BIS and the other licensing agencies cannot disclose newly
regulated items to U.S. companies or prevent them from being exported until the new regulations
are issued.

In March 2001, we recommended that BIS review its clearance process and work with the other
licensing agencies to publish new regulations faster.53 The Under Secretary for Export
Administration agreed with our recommendation. BIS completed an evaluation of its regulatory
review process in late 2001, creating an internal database to track regulations still under review.
BIS now sends a follow-up memorandum to a licensing agency if its response regarding
regulations referred for interagency review is overdue. BIS officials believed the 2001 changes
would expedite the review of regulations, including those implementing the AG changes.
Although these changes did not impact the amount of time taken to publish the 2002 and 2003
changes, in 2004 the changes took only 6 months to publish. Specifically, prior to 2004, U.S.
agencies averaged 11 months to get items newly regulated by the AG published in the CCL.
However, changes from the AG’s June 2004 meeting only took six months to get published in
the CCL, bringing the average down to 10 months.54 In the future, BIS should build on its 2004
performance and continue to publish the AG changes more quickly.

A. 	    Updating the CCL with chemical and biological items is too time consuming

Each year after the annual meeting of the AG, U.S. licensing agencies meet to decide how to
implement any new control changes. For example, if a new control is added to the AG list, the
U.S. must decide whether it wants to control the item as a dual-use or munitions item. The
Department of Commerce is responsible for making changes on the CCL for dual-use items, and
the Department of State is responsible for making changes on the U.S. Munitions List (USML)
for munitions items. Figure 11 on the next page documents the process used by BIS to
implement control regulation changes to the CCL.




53
   U.S. Department of Commerce Office of Inspector General, Management of the Commerce Control List and 

Related Processes Should be Improved, IPE-13744, March 23, 2001. 

54
   The AG held its annual meeting from June 7-10, 2004, and the new regulations were published on December 29, 

2004. 

                                                      31

  U.S. Department of Commerce                                                                 Final Report IPE-16946

  Office of Inspector General                                                                            March 2005


  Figure 11: BIS Process for Changes to the Commerce Control List


     (1) BIS Licensing Divisions          (2) Regulatory Policy Division            (3) BIS/DOC/OMB Review
     Licensing divisions, such           Prepares draft regulation and           BIS Units
                                                                                    
         as the Chemical and                  submits to BIS units for               Review draft regulation and provide
         Biological Controls                  clearance, and informs the             comments/clearance. Includes the
         Division, provide the                Department’s Office of General         Office of Export Enforcement,
         Regulatory Policy Division           Counsel and the Office of              Office of Strategic Trade and
         with regulation changes              Management and Budget if the           Foreign Policy Controls, and Office
         from the recent meetings of          regulation is significant or not.      of Chief Counsel for Export
         the Australia Group or            Puts information into tracking          Administration.
         other multilateral groups,           system.*
         such as the Missile               Sends comments to the                   DOC Office of General
                                                                                    
         Technology Control                   applicable licensing division          Counsel **
         Regime, Nuclear Suppliers            and the Office of Chief Counsel        Reviews the preamble to the
         Group, and the Wassenaar             for Export Administration for          regulation or the whole regulation
         Arrangement.                         final review before going to the       and assigns a document number.
                                              Assistant Secretary.
                                           Reviews interagency comments            Office of Management and
                                                                                    
                                              and sends to BIS units,                Budget (OMB)
                                              including Office of Chief              Reviews the preamble to the
                                              Counsel, for their review and          regulation or the whole regulation.
    (5) Interagency Review                    clearance.
     Agencies provide
         comments to the
         Regulatory Policy Division
     Technical Advisory                 (4) Assistant Secretary for
         Committees provide
                                          Export Administration
         comments (i.e., SHIELD
                                           Submits cleared regulation to
         for chemical and biological
                                             Departments of Defense,
         commodities, the Missile
                                             Energy, and State, and the
         Technology Export Control
                                             appropriate Technical
         Group, and the Subgroup
                                             Advisory Committee for
         on Nuclear Export
                                             review.
         Coordination).
                                           Final regulation signed.


                                          (6) Federal Register
                                           Regulation is published in the
                                             Federal Register.

    *A Regulatory Identification Number is used by OMB to track and review regulations.
    **If Regulatory Policy Division and the Office of General Counsel determine the regulation is significant, the
    entire regulation is submitted to OMB. Otherwise, OMB only receives the preamble and a summary of the
    regulation.



Source: OIG, based on information from BIS’ Regulatory Policy Division

  There is no deadline to publish annual AG changes other than the timeframe listed by BIS’
  Regulatory Policy Division, which allows 3 months to issue draft regulations to the interagency
  licensing groups after AG changes are received. However, the publication of new AG
  regulations has averaged just over 10 months for the last seven years. On three occasions in the
                                                           32
U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005


last 7 years, the U.S. Government failed to publish new AG regulations before the next annual
AG meeting (1999, 2000, and 2003).

Publication of new AG regulations takes time because of the regulatory process and the need for
interagency review

BIS officials cited several reasons for the time it takes to publish new AG regulations. First,
time may elapse between the end of the AG plenary and the official posting of the control list
changes. This will delay the beginning of the process for formal interagency clearance of the
implementing regulation. Second, according to BIS, the U.S. regulatory process is more
comprehensive than that of other members. U.S. regulatory requirements to make changes to the
CCL, such as the need to publish Federal Register notices, are simply much more complicated
and time consuming than those of other countries.

The U.S. interagency process requires that multiple parties must approve changes before they
can be published. All the licensing agencies participate in the AG annual sessions, so they are
aware of control changes agreed to by the U.S. before BIS provides them with the draft
regulations to review. But, BIS officials said the current process is time consuming because
other agencies (State and Defense) are allowed to review and comment on the changes. The
need for these agencies to be involved increases the amount of time it takes to get changes
published. Finally, all comments and changes from the licensing agencies, OMB, or other BIS
offices need to be incorporated by the Regulatory Policy Division and again reviewed by CBCD
and the Office of Chief Counsel before the changes can be published.

B.      Delays in publishing Australia Group guidelines could cause problems

Delays in publishing the latest AG guidelines could cause problems for the U.S. government. In
an October 2002 report, GAO recommended agreed-upon changes to control lists should be
adopted by all AG members at the same time. If not, proliferators could exploit time lags to
obtain sensitive technologies by focusing on AG members slowest to incorporate the changes.55
While agreement on timing for implementation among AG members would be ideal, it is
unlikely due to members’ national discretion in undertaking AG commitments.

Until an item is listed on the CCL, BIS cannot reveal to exporters that it may soon be controlled.
The information contained in the reporting cable prepared after AG meetings is classified, so the
very mention to an exporter that an item is soon to be controlled could be perceived as
improperly revealing classified information. Changes are not considered public information until
they are listed on the AG web site.

Even then, BIS has little ability to stop items from being exported until they are added to the
CCL. In most cases, the newly regulated items do not require a license and can be shipped at
will until they are listed on the CCL. For example, in 2003, AG members agreed to add 12 new
viruses to the list of AG-controlled human and zoonotic pathogens described in ECCN 1C351.
BIS did not add them to the CCL until 9 ½ months later, during which time U.S. exporters could
have legally shipped these items without a license. Because exporters were not required to have

55
 The United States General Accounting Office, Nonproliferation: Strategy Needed to Strengthen Multilateral
Export Control Regimes, GAO-03-43, October 2002.
                                                      33

U.S. Department of Commerce                                                                   Final Report IPE-16946

Office of Inspector General                                                                              March 2005


an export license to ship the items, BIS has no way of knowing whether any shipments were
made.

BIS does sometimes attempt to legally stall the export of items in the “lag time” between being
newly controlled by the AG and inclusion on the CCL. For example, BIS received an
application in FY 2003 for a biological item that the AG had marked for control but was not yet
listed on the CCL. The exporter submitted an application on February 6, 2003, and the item was
not listed on the CCL until June 10, 2003. If BIS had not received the application, the item
would have been shipped because a license was not required.56 But, because the exporter applied
for a license, BIS was able to assess the end-user and it found negative information. Because of
the derogatory information on the end-user, BIS placed the application on HWA pending
publication of the new AG rules in June 2003 in order to obtain and issue a regime-based denial
so that the AG no undercut obligations would be implemented on a multilateral basis. Denials
based on unilateral controls do not invoke such obligations. The reviewing agencies ultimately
rejected the application after the new regulations were published. Such lucky occurrences are
rare, though, and BIS officials are concerned about items that have been exported pending the
publication of new regulations.

Catch-all controls may prevent unlisted chemical and biological items from being exported

As stated above, the “lag time” between when the AG newly controls items and when those same
items are actually published on the CCL can be lengthy. One mechanism to potentially mitigate
this problem is “catch-all” controls. In December 1990, the U.S. government announced the
Enhanced Proliferation Control Initiative (EPCI) to implement catch-all controls to prevent
common use items, such as test equipment, decontrolled machine tools, certain steels, and
electronic parts from being exported to foreign countries that want to acquire the capability to
develop, produce, stockpile, deliver, or use nuclear, missile, chemical, or biological weapons.57

The EAR requires exporters to obtain an export license for all items, even those not on the CCL,
when the exporter “knows” or “is informed” that the goods and technology will be used in
connection with WMD activities. To help exporters with the first criterion—knowledge that an
item is being sought for proliferation reasons—BIS established guidelines to help exporters
“know” or “have reason to know” whether an item will be used directly or indirectly in a nuclear,
missile, chemical, or biological weapons program and whether “catch-all” controls are
applicable. Specifically, BIS’ “Know Your Customer” and “Red Flags” guidelines58 provide tips
to help exporters scrutinize the parties and proposed end use listed on an application. This may
include looking for signs that the consignee may not be legitimate, such as an order placed for a
high performance computer going to a small bakery.

For the second criterion, the EAR requires an exporter to obtain a license if the exporter “is
informed” by the Department of Commerce that there is a serious risk of diversion. The
Department informs exporters through letters in response to exporter requests for information
about the end-use or end-user associated with a proposed transaction. The Department also

56
   According to BIS officials, exporters often file applications for items that are not controlled “just to be safe.” 

57
   Statement by White House Press Secretary Fitzwater on the President’s Export Control Initiatives, December 13, 

1990. EPCI continued controls set up by Executive Order 12735, Chemical and Biological Weapons Proliferation,

November 16, 1990. 

58
   Export Administration Regulations, Part 732, Supplement No. 3. 

                                                          34

U.S. Department of Commerce                                                                 Final Report IPE-16946

Office of Inspector General                                                                            March 2005


informs exporters through a list of entities and items considered to be at serious risk for
diversion. The Department publishes the names, items, and restrictions placed on entities in the
Federal Register and the EAR. The Department requires exporters to assess the nature and
activities of their potential customers, and they are advised to contact the Department if they
have any concern with the identity or activities of end-users.

GAO and BIS are concerned that the catch-all controls are not consistently implemented and not
easily enforced. GAO found in 2002 that countries implement catch-all controls differently,
possibly impacting the controls’ effectiveness in stopping proliferation.59 Specifically, GAO
stated that some countries must show that an exporter had absolute knowledge that an export
would support proliferation activities before they can require a license or prosecute a violation of
law. As a result, some exporters may have had a reason to know about certain end uses or end
users, but not absolute knowledge, and exported goods without a license that might have been
used in connection with WMD activities. However, the U.S. needs to show only that an exporter
knew or suspected that an export would support proliferation activities to require a license or to
prosecute a violation of law. As for BIS, it stated in a 2001 report that different countries’
standards complicate detecting, investigating, and prosecuting cases under the “knowing”
standard set by the EPCI catch-all provision.60

Conclusions

During our review, BIS personnel were adamant that the bureau had made all feasible changes to
the process of publishing new AG regulations and that the time could not be further reduced.
The average time to publish new AG regulations has been 10 months for the last 7 years, but BIS
managed to publish the latest round of changes in 2004 in only 6 months, which demonstrates
that the time can be reduced.61 We hope such a change is not an anomaly and can be replicated.
BIS told us it only took 6 months because it needed to quickly restore certain notes covering
license requirements that had been inadvertently removed by a BIS rule on July 30, 2004.62 The
urgent need to get these notes restored apparently motivated both BIS and the other agencies to
move much more quickly than they usually do.

BIS says publishing changes from the April 2005 AG meeting in the CCL will depend on (1)
how quickly BIS receives official notice of the changes, (2) the complexity of the changes, (3)
whether there is an effort to add unrelated revisions to the rule, and (4) how quickly Commerce,
Defense, and State resolve any comments on the rule.




59
   The United States General Accounting Office, Nonproliferation: Strategy Needed to Strengthen Multilateral 

Export Control Regimes, October 2002, page 19-20. 

60
   U.S. Department of Commerce, Foreign Policy Report, 2001. 

61
   For the six years prior to the June 2004 annual AG meeting, the U.S. licensing agencies had taken an average of 

11 months to publish the new AG regulations in the Federal Register. 

62
   BIS wanted to quickly restore these notes in the Federal Register because they contained critical guidance 

concerning the license requirements for ECCNs 1C355, 1C395, and 1C995. Only one of these ECCNs (1C395) is 

for chemical or biological commodities. 

                                                         35

U.S. Department of Commerce                                                   Final Report IPE-16946

Office of Inspector General                                                              March 2005


Recommendation

Take appropriate actions to sustain recent improvements in the timeliness of U.S. publication of
Australia Group guidelines and rule changes that impact the Commerce Control List.



The bureau’s response to our draft report stated agreement with this recommendation. Further,
BIS stated that its FY 2005 Regulations Calendar has the AG changes (resulting from the April
2005 AG plenary) scheduled to be sent for interagency review one month after official
notification of the regime list changes. BIS notes that the regulation will need to be cleared by
State and Defense and, prior to publication, OMB must approve the regulation.




                                                36

U.S. Department of Commerce                                                                     Final Report IPE-16946

Office of Inspector General                                                                                March 2005


V.       Denial Notification to the Australia Group Needs to Be More Transparent

One of the obligations of AG membership is the submittal of license denials to the group so that
potential proliferators cannot “shop around” from one country to another for items. AG
members have also adopted a “no undercut” policy in which members agree not to approve an
identical sale without first consulting with the member that first issued the license denial.

Since August 2002, Commerce and the State Department have disagreed about the U.S. policy
and practices for submitting denials to the AG. State, as the lead representative to the AG, is
responsible for submitting the U.S.’s denials to the AG. BIS believes three changes would be
useful to make the denial notification process more effective and transparent. First, BIS would
like all denials sent to the AG to ensure that the no undercut policy is always triggered. The
Department of State now subjectively determines which denials are submitted. Second, BIS
believes that State should send denials to the AG at the time that BIS issues its “intent to deny”
letter to applicants, rather than after the mandatory 45-day period during which BIS will consider
any additional information provided by the exporter to rebut BIS’ decision to deny the
application.63 Finally, BIS believes that State should not unilaterally rescind prior denials to the
AG. Unfortunately, the AG’s policy on the reporting of denials is not explicit, so State and
Commerce have different views on how it should be implemented. The process of submitting
U.S. export license denials to the AG should be more transparent and written policies and
procedures are needed for the process.

BIS wants all denials sent to the Australia Group

When one of the 39 AG members denies a license for an AG-controlled item, the other 38
members have agreed not to approve essentially identical applications without consulting the
member that issued the original denial. The AG’s “no undercut” policy, which includes the
reporting of denials, helps identify end users who shop from country to country for chemical and
biological commodities. The “no undercut” policy was established in 1993 to promote
compliance with regime commitments, provide members with information on questionable
license applications, and help better monitor export trends.

The policy depends on the cooperation of AG members to be effective.64 However, the AG
Handbook implies, but does not specifically state, that members should submit all denials in a
timely manner, which allows members to interpret the policy as they wish. The AG Handbook
does provide specific criteria and a format for denials, but adopting the policy is a matter of
national choice by each AG member.

As the lead U.S. representative to the AG, the State Department is responsible for submitting
license denials to the AG. Yet, State does not currently submit all denials to the AG. Instead, it
examines each denial on a case-by-case basis and determines whether to send the denial to the
AG. For example, State only submits denials that involve exports to non-AG countries. State’s

63
   According to 15 CFR 750.6, an applicant has 20 days after the date of the intent to deny letter to rebut BIS’ 

decision and provide additional information showing why the application should be approved. Unless BIS advises

the applicant that the bureau has reversed its opinion, the denial becomes final 45 days after the date of the intent to

deny letter. The applicant then has 45 days from the date of the final denial to appeal the decision, as outlined in 

Part 756 of the EAR.

64
   AG members are not legally bound to comply with AG policies. 

                                                           37

U.S. Department of Commerce                                                              Final Report IPE-16946

Office of Inspector General                                                                         March 2005


rationale for this “policy” is not documented in any way. Since August 2002, Commerce and
State have disagreed about the U.S. policy for submitting denials to the AG. This disagreement
over the interpretation of AG policy has prevented development of a consistent and transparent
U.S. process for ensuring American compliance with the AG’s nonproliferation goals.

BIS acknowledges that the AG Handbook does not specifically state that all denials should be
sent to the AG, but it also does not state that some denials can be kept from the AG, depending
on a member country’s preference. We agree that the AG Handbook is somewhat ambiguous.
BIS’ position is all denials, including denials to companies in AG member countries, should be
submitted to the AG. Specifically, AG member countries should be alerted to end users in their
countries who shop from country to country for chemical and biological commodities. Thus,
while BIS does not challenge State’s authority to make such decisions, it disagrees with State’s
application of that authority.

To better understand State’s position on the denial notification process, we spoke to officials in
State’s Office of Chemical, Biological, and Missile Nonproliferation. They said the process is
better than it was in 2002, when State was criticized by GAO for not providing any denials to the
AG between 1996 and 2001.65 State officials center their position around their belief that AG
policy language allows member countries to submit denials at their discretion, including whether
to submit (1) all denials, (2) denials for companies in AG member countries, and (3) denials
while end users are under review. State stated that it did not send 10 of the 23 denials for
chemical and biological commodities in FY 2003 to the AG for these reasons.

On the other hand, BIS told us that State should have sent 6 of the 10 denials it did not send in
FY 2003 to the AG and 1 to the Missile Technology Control Regime, another international
export control consortium devoted to stemming the proliferation of delivery systems for nuclear,
chemical, and biological weapons. BIS officials agree that State did not need to send the other
three denials to the AG, because two were to end users already under investigation by BIS66 and
the third was an application returned to the applicant. Figure 12 shows the specific details for the
6 denials Commerce believes State should have sent to the AG.

Figure 12: 6 Additional Denials That BIS Believes Should Have Been Sent
to the AG in FY 2003

1. Three Cases—State unilaterally and incorrectly (according to BIS) classified three
cases as non-chemical and/or biological proliferation related denials and did not send the
denials.
2. Two Cases—Two cases involved companies (end users) in AG member countries,
which State told us they do not send to the AG.67 BIS officials disagree with this policy.
3. One Case— In the final case, State declined to send the denial based on high-level
intelligence. BIS officials contend the denial still should have been sent to the AG.

Source: OIG and BIS

65
   General Accounting Office, Nonproliferation: Strategy Needed to Strengthen Multilateral Export Control
Regimes, October 2002 (GAO-03-43). GAO was recently renamed the Government Accountability Office.
66
   The licensing agencies decided to not send multiple notifications for the same denied end user.
67
   State believes it is AG policy not to send to the AG any denials involving companies in AG member countries.
We could find no support for State’s assertion.
                                                       38
U.S. Department of Commerce                                                                 Final Report IPE-16946

Office of Inspector General                                                                            March 2005


BIS wants all denials sent to the Australia Group at the time applicants are informed

BIS also believes that State should send denials to the AG at the time BIS issues an intent to
deny and not after the expiration of the 45-day period during which BIS will consider any
additional information provided by the exporter to rebut BIS’ decision to deny the application.
Currently, State sends denials after the 45 days has elapsed. In August 2002, Commerce’s
Assistant Secretary for Export Administration wrote to his counterpart at State asserting that
license application denials should be provided to three68 of the four multilateral organizations
when Commerce issues its intent to deny letter to an applicant.69

The Assistant Secretary’s letter stated that the AG’s no undercut policy is negated if AG member
countries are not aware of U.S. denials shortly after the denial decision has been made, and U.S.
business interests suffer if end users approach foreign competitors to purchase commodities that
the U.S. declined to license for export. Commerce’s position is that companies in all member
countries should compete for international sales on a fair and equal basis. Furthermore, if the
U.S. had serious concerns about proliferation and decided to deny a license, other AG members
should know about the U.S.’s denial before they are approached by the same foreign buyer. If
the U.S. waits 45 days to notify AG members, it may be too late to prevent a sale from another
source.

In September 2002, State’s Acting Assistant Secretary for Nonproliferation responded to
Commerce’s August 2002 letter and outlined a three-step process to improve U.S.
implementation of the AG’s no undercut policy. Figure 13 describes the three steps proposed by
State.

Figure 13: Department of State’s Proposed Steps to Improve the No Undercut Policy

1. If exporters relinquish their appeal rights—As part of the Intent to Deny process, exporters could
relinquish their appeal rights to denials so that the international organizations are promptly notified,
companies in member countries compete equally for international sales, and the negative consequences of
denials overturned on appeal are avoided.
2. If exporters do not relinquish their appeal rights—State would promptly issue a “denial based on
inquiry” notification to export control organizations and follow-up with a full denial when the denial goes
final. (State officials said “denials based on inquiry” are not subject to the no undercut policy, but the
prompt issuance of such tentative export license denials would allow member countries to get information
sooner. They believe few member countries would permit an essentially identical transfer, even though
they are not compelled to deny it “based on inquiry.”)
3. Reserve the right to issue intent to deny letters—State would submit license application denials to
member countries at the intent to deny stage in cases with compelling reasons or those cases not addressed
by steps 1 and 2.

Source: Department of State letter to BIS, September 23, 2002.

As of March 2005, neither State nor Commerce had implemented State’s proposed procedure.
BIS officials rejected Step 1 because they believe the appeal process cannot be legally waived,
but BIS officials never formally communicated this to the State Department. More than two
68
   The Australia Group, the Missile Technology Control Regime, and the Nuclear Suppliers Group have a no 

undercut policy while the Wassenaar Arrangement does not. 

69
   GAO recommended in its October 2002 report that the Secretary of State report U.S. denials of all export licenses 

when the exporter is issued the intent to deny letter. 

                                                         39

U.S. Department of Commerce                                                             Final Report IPE-16946

Office of Inspector General                                                                        March 2005


years have passed with no resolution of this interagency impasse. Commerce and State need to
immediately reopen discussion on this policy and reach agreement on when denials and notices
of “denial based on inquiry” or appeal will be sent to the AG.

BIS wants State to not unilaterally rescind prior denial notices to the AG

BIS officials assert it is also inappropriate for State to unilaterally reverse a license denial
decision, without first obtaining the concurrence of the agencies involved in the application
review process. BIS officials say that State essentially rescinded a prior denial in 2004 without
Commerce clearance. A U.S. company had applied for a license to export to a company in a
non-AG country, but was denied the license.70 State followed AG policy and notified the AG
Chair of the denial. But, in accordance with the no undercut policy, an AG member country
contacted the U.S. (State) to discuss the denial and ask for information on the company in the
non-AG country. This AG member country reportedly wanted to abide by the no undercut
policy, because one of its companies had applied for a license for the same goods to the same
company in the same non-AG country.

After being asked for its opinion on the company in the non-AG country, State decided that the
company in the non-AG country did not pose any proliferation concerns. Despite the fact that
licensing agencies, including State,71 had denied a U.S. export license for goods being sent to this
company, BIS told us that the company in the AG member country would be allowed to export
goods to the company in the non-AG country because of State’s unilateral decision not to object.
Because of State’s reversal, BIS personnel contacted the U.S. company that had originally been
denied the license and suggested that the company could reapply, if interested.

We asked both BIS and State for any written procedures for rescinding prior denial notices to the
AG. Neither agency was able to provide any documentation. State officials said that the agency
controls the rescinding of prior denials to the AG for "foreign policy" reasons. Neither the AG
guidelines nor the EAR addresses the issue of rescinding prior denials to the AG. We note
further that State would have the opportunity to approve or vote to deny an export for foreign
policy reasons during the regular interagency license approval process. In addition, BIS and
State disagreed on whether this AG denial notification process is linked to the formal escalation
process for export licenses, as outlined in Executive Order 12981. While State believes that
CBCD can escalate any State decision to rescind a prior denial to upper BIS management for
discussion with their counterparts at State, CBCD believes escalation is difficult without a
documented process.

With regard to the case discussed above, State personnel said that the decision was discussed
with BIS, DOD, and Energy. However, because there was a quick turnaround placed on the
inquiry from the other country, State moved quickly to reply. Thus, while BIS was informed
both verbally and in writing of State’s decision, there was reportedly little time to debate the
decision. State said that BIS did verbally disagree with State’s decision to rescind the denial
notification, but that it received nothing in writing from BIS before or after it released its formal
reply on this case. State remarked that CBCD also did not escalate the issue to upper BIS

70
   The license was not denied simply because the company was located in a non-AG country, but because there were

concerns about the company listed as the end-user.

71
   State had denied the license “due to risk of diversion to end-users/programs of concern.” 

                                                      40

U.S. Department of Commerce                                                   Final Report IPE-16946

Office of Inspector General                                                              March 2005


management. To avoid similar disagreements in the future, BIS and State and the other referral
agencies should jointly develop written procedures on the handling of such notices.

Recommendation

Work with the State Department, and the other licensing referral agencies, to develop and
implement written procedures for handling the AG denial notification process. The procedures
should cover, at a minimum:
   x the U.S. policy on submitting denials to the AG,
   x when U.S. denial notifications will be sent to the AG—either when the intent to deny
       letter is sent or after the 45-day rebuttal period has lapsed, and
   x	 how U.S. decisions to rescind prior denial notifications to the AG will be made. This
       should specify how State will exercise its representation authority and how the other
       licensing agencies will be involved in the decision making process.



BIS, in responding to our draft report, stated that it agreed with this recommendation.




                                                41

U.S. Department of Commerce                                                   Final Report IPE-16946

Office of Inspector General                                                              March 2005


VI. 	   BIS Outreach Efforts Are Mainly Targeted to the Biological Exporting Community
        and Could Be Expanded

A critical component of BIS’ mission is outreach to the exporting community to build awareness
and compliance with the EAR. BIS holds an annual Update Conference on Export Controls and
Policy each October to educate exporters about new policy initiatives and to provide information
on export controls through small group sessions that focus on a wide array of topics. The Update
Conference is complemented by numerous BIS export control seminars held around the country
throughout the year. Often it is necessary to target outreach to specific business and technology
sectors. We found BIS has expanded its efforts to reach the biological exporting community, but
it has not been as successful in reaching the chemical exporting community. In addition, BIS has
an opportunity to reach out to the 318 entities registered with the U.S. Department of
Agriculture’s Animal and Plant Health Inspection Service (APHIS) and the U.S. Department of
Health and Human Services’ Centers for Disease Control and Prevention (CDC). These entities
work with select agents and toxins that pose a severe threat to livestock, plants, and/or public
health, many of which are also listed on the CCL.

A. 	    BIS outreach efforts to the chemical community need to be expanded

In recent years, CBCD has concentrated its outreach on the biological exporting community.
Since 2002, staff members in CBCD have given presentations at the annual meetings of the
American Biological Safety Association, the Biotechnology Industry Organization, the American
Society for Microbiology, the Federal Laboratory Consortium for Technology Transfer, and the
Animal Health Institute—Biologics Section. In May 2004, CBCD hosted an in-house
presentation for biological exporters covering nonproliferation controls on biological
commodities. Outreach to the chemical exporting community has been in conjunction with
outreach to the biological exporting community, such as a presentation at the Licensing
Executives Society Meeting in December 2003 and an in-house seminar for other federal
agencies covering nonproliferation controls on biological and chemical items in April 2003. We
should note that after the September 11, 2001, terrorist attacks, agents from OEE were instructed
to visit all chemical manufacturers within their respective regions to inform them of their
responsibility to comply with the EAR. However, this type of outreach has not been duplicated
since.

The director of the Office of Nonproliferation and Treaty Compliance said there is a reason for
the disparity between outreach done to the biological exporting community and outreach done to
the chemical community. The biological exporting community usually exports small, financially
insignificant amounts that are not typically viewed by the exporters as commercial transactions
and not regarded as subject to export controls. But according to this BIS official, chemical
exporters tend to be large companies with significant experience in exporting. These firms
usually have offices or staff that regularly handle export control and compliance matters because
the industry is so heavily regulated. The director feels that scarce resources for outreach efforts
need to be directed where the greatest need lies, which he believes is in the biological
community. Another licensing official also emphasized that BIS gives extra attention to the
biological community because of greater proliferation concerns involving biological
commodities, which can be readily reproduced and diverted.


                                                42

U.S. Department of Commerce                                                                  Final Report IPE-16946

Office of Inspector General                                                                             March 2005


CBCD staff mentioned scarce resources several times as the reason why outreach to the chemical
community is limited. For example, one of the LOs in CBCD was invited to speak about export
controls at the American Chemical Society’s annual meeting in 2004, but he could not attend
because BIS did not make funding available for him to attend. The director of the Office of
Nonproliferation and Treaty Compliance told us that even if sufficient budgetary resources were
available to pay for travel expenses to do outreach, right now he cannot send CBCD staff out of
the office for outreach activities because export license applications will sit unprocessed for the
period of time that they are gone. As it is, 20 percent of incoming chemical and biological
license applications are being reviewed and processed by other divisions because of staffing
shortages in CBCD.72

According to BIS’ director of administration, the agency has $68.779 million to spend on its
programs in FY 2005. This was a small decrease of $240,000 from FY 2004, when available
funding was $69.019 million. Funding in FY 2003 was $72.189 million, so BIS’s budget was
reduced by $3.170 million between FY 2003 and FY 2004. While BIS has experienced a series
of declining budgets, BIS management has not arranged the budgetary resources it does have to
fund more outreach to the chemical exporting community. While outreach to the biological
exporting community is probably a higher priority, outreach done with the chemical community
in recent years has been limited, except for OEE’s outreach after the September 11th terrorist
attacks and outreach done by the Treaty Compliance Division on the Chemical Weapons
Convention. Lower cost options to extend BIS’ outreach to the chemical community are
possible.

Recommendation

Explore ways to do more outreach to the chemical exporting community, including lower cost
outreach alternatives, such as setting up briefings in Washington, mailings, or piggybacking on
outreach done in connection with CWC compliance activities conducted by BIS’ Treaty
Compliance Division.



BIS, in its response to our draft report, agreed with this recommendation. Specifically, BIS said
it will explore ways to increase outreach to the chemical exporting community consistent with
available resources and chemical licensing and policy matters requiring attention. BIS also
stated that it has an extensive general outreach program in which the chemical industry can
participate.

B.         There is an opportunity for focused outreach to registered entities

APHIS and the CDC jointly maintain a list of select agents and toxins that pose a severe threat to
livestock, plants, and/or public health.73 Currently, all but 25 of the items on the Select Agent
List are also controlled under the EAR and are on the CCL. In October 2004, staff in CBCD,
based on discussions with CDC and APHIS officials, decided to draft an AG proposal to put the
remaining 25 items from the Select Agent List on the AG control list and then the CCL.

72
     In FY 2004, CBCD lost 3 LOs. One was replaced in October 2004, however there are still two vacancies.
73
     See http://www.aphis.usda.gov/programs/ag_selectagent/ag_bioterr_toxinslist.html for the Select Agent List.
                                                          43

U.S. Department of Commerce                                                    Final Report IPE-16946

Office of Inspector General                                                               March 2005




CBCD staff shared this proposal with the Materials Technical Advisory Committee at its
February 2005 meeting. After interagency review and concurrence, State submitted this proposal
for consideration at the April 2005 AG plenary. If this proposal is made to the AG, but not
adopted, BIS will evaluate whether to unilaterally place these 25 items on the CCL.

Note that even without the 25 items on the CCL, there still is a high level of overlap between the
Select Agent List and the CCL. APHIS and CDC are responsible for tracking U.S. entities that
deal in the agents and toxins on the Select Agent List. The Public Health Security and
Bioterrorism Preparedness Response Act of 2002, P.L. 107-188, which was signed into law by
the President on June 12, 2002, requires that entities, such as private, state, and federal research
laboratories, universities, and vaccine companies, that possess, use, or transfer agents or toxins
on the Select Agent List register with the appropriate federal agency (APHIS for livestock and
plant pathogens or toxins and CDC for agents or toxins deemed a severe threat to public health).
Currently, 318 entities are registered with APHIS and/or CDC. The registered entities fall in the
following general categories:

                        Figure 14. Registered Entities
                        31%      State and Local Government
                        30%      Academia
                        17%      Federal Government
                        11%      Commercial (For Profit)
                        10%      Private (Non Profit)
                         1%      Other
                       Source: HHS OIG, January 2005

Discussions with officials at APHIS, as well as work done by the OIGs at the U.S. Department of
Agriculture and U.S. Department of Health and Human Services, reveal that APHIS and CDC
may not be adequately educating the registered entities about the need to obtain export licenses
for select agents subject to the CCL and shipped outside the United States. The OIG at
Agriculture found two instances of a registered entity shipping a CCL-controlled item to Hong
Kong without an export license. They also found that APHIS does not tell its registered entities
about export license requirements unless specifically asked. In such cases, APHIS does refer the
entities to BIS. The OIG at Health and Human Services did not do an in-depth inspection of
registered entities, but it did note that guidance provided by CDC to the entities lacks
information about exporting requirements and how to obtain an export license from BIS.

Given both the overlap between the Select Agent List and the CCL, and the “ready made” list of
users of select agents and toxins in the hands of APHIS and CDC, this appears to be an excellent
group for BIS to reach and educate with minimal effort. BIS should work with APHIS and the
CDC to obtain a list of their registered entities and develop a way to inform each entity of (1) the
need to comply with the EAR, (2) how to apply for an export license, and (3) contact information
for BIS staff should the letter recipients have questions about export licensing requirements.




                                                 44

U.S. Department of Commerce                                                  Final Report IPE-16946

Office of Inspector General                                                             March 2005


Recommendations

Pursue multilateral controls on the 25 items now on the HHS/APHIS Select Agent List that are
not currently controlled for export. If agreement cannot be reached multilaterally, evaluate
putting the 25 items on the CCL unilaterally.

Inform APHIS and CDC registered entities in writing of the need to comply with the EAR and
how to apply for an export license if they plan to export controlled items.



In the Acting Under Secretary’s March 30, 2005, response to our draft report, the bureau stated
that it agreed with these recommendations. For the first recommendation, BIS suggested a
modification to reflect the bureau’s plan to first petition the AG to control the 25 agents on the
Select Agent List that are not currently on the CCL. If the AG does not add the items to its
control list, BIS will consider imposing unilateral controls. The recommendation was changed in
accordance with BIS’ suggestion. For the second recommendation, BIS stated that it has already
contacted both APHIS and CDC in order to begin the outreach process to their registered entities.
Additionally, BIS stated that CDC’s Select Agent website now cites Commerce’s export controls
on biological agents and APHIS recently requested, and was provided, website citations for BIS
to use on its website.




                                               45

U.S. Department of Commerce                                                   Final Report IPE-16946

Office of Inspector General                                                              March 2005


VII. 	 BIS’ Export Enforcement Office Needs to Act on the Treaty Compliance Division’s
       Investigative Referrals

BIS’ Treaty Compliance Division (TCD) is responsible for assisting U.S. industry in complying
with international arms control, disarmament, and non-proliferation agreements and helping to
ensure industry compliance. One of the primary agreements the division administers is the
Chemical Weapons Convention (CWC), an international treaty that affects companies involved
in the production, processing, consumption, import, and export of a range of commercial
chemicals and precursors. TCD has referred 13 instances of non-compliance with CWC
requirements to OEE for investigation in FYs 2002 through 2004. However, to date, TCD has
received no feedback from OEE regarding the referrals, nor has any action been taken against the
alleged offenders.

The CWC took effect on April 29, 1997. Currently, 167 countries are state parties to the
convention. The CWC contains several requirements for U.S. industry,74 such as submitting
annual declarations to TCD for certain activities related to chemicals controlled by the CWC. In
addition, export licenses may be required to export certain CWC-controlled chemicals,
particularly to countries that are not parties to the CWC. In some cases, an end-use certificate is
required. End-use certificates are issued directly or approved by the government of the
importing destination. When required, end-use certificates must be submitted to BIS within 7
days of the date of export and must state:

     x   the types and quantities of chemicals being exported;
     x   their specific end-use(s);
     x   that the chemicals will be used only for purposes not prohibited by the CWC;
     x   the name(s) and complete address(es) of end-user(s); and
     x   that the chemicals will not be transferred to other end-user(s) or end-use(s).

According to TCD, 10 companies did not submit the required end-use certificates in FY 2002.
There were two instances of non-compliance with the end-use certificate requirement in FY 2003
and one in FY 2004. TCD staff referred all of the cases of non-compliance to OEE for
investigation and appropriate action. However, to date, BIS has taken no action against any of
the alleged non-compliant companies. TCD is concerned that this has created the impression
among exporters that BIS does not enforce the end-use certificate requirements.

TCD officials are troubled that no sanctions have been applied against any of the companies that
did not submit end-use certificates because it reflects poorly on the U.S.’s commitment to
enforce CWC provisions. TCD officials noted that the U.S. had worked closely with the
Organization for the Prohibition of Chemical Weapons, the international body created to
implement the CWC, to set up compliance programs for other CWC members and TCD has
worked diligently to be a model for compliance itself. TCD officials are concerned that even
though industry compliance has improved, if exporters believe that there is no consequence to
not filing the end-use certificates, they may be more lax in the future.



74
  These requirements are contained in the CWC Provisions of the EAR.
http://www.cwc.gov/Regulations/cwc_ear_provisions_html
                                                     46

U.S. Department of Commerce                                                              Final Report IPE-16946

Office of Inspector General                                                                         March 2005


We reviewed the 12 referrals TCD made to OEE in FYs 2002 and 200375 and found that OEE
had actually initiated nine investigations. OEE had no record of one referral and the referral of
two companies in FY 2003 was rolled into open investigations of the same two companies for
the same infraction in FY 2002. Six of the nine investigations were still underway, and three
were closed without action. Our inquiry into the status of the investigations spurred OEE to take
a closer look at the closed referrals, and after examination, OEE officials decided to reopen two
of the three closed cases. In addition, OEE has taken further action on the open investigations,
including site visits to two companies in December 2004 and January 2005. Given the time
intensive nature of the investigations, OEE officials do not have estimates of when these cases
will be concluded, but criminal charges will not be filed in the cases because of the nature of the
alleged infractions. The more likely penalty would either be a warning letter or an administrative
charge that might include a civil fine.

Regardless of the penalties ultimately handed out to companies who have not filed the required
end-use certificates, TCD should be informed of any final enforcement actions taken on its
referrals so it can (1) educate industry about the consequences of failing to file end-use
certificates and (2) demonstrate to the Organization for the Prohibition of Chemical Weapons
that the United States has a robust compliance program that includes enforcing CWC
requirements through punitive measures. This can be done without publicly disclosing any
company-specific or sensitive information. Additionally, TCD should also track its referrals of
non-compliant companies so it can follow up with OEE should TCD not be informed in a timely
manner of the outcome of the investigations opened as a result of the division’s referrals.

Recommendations

Direct OEE to inform TCD of the outcome of the CWC-related investigations upon completion
so information can be shared with the chemical exporting community and the Organization for
the Prohibition of Chemical Weapons.

Ensure that TCD builds a system to track CWC investigative referrals so it can follow up if OEE
has not provided the status of the investigations in a specified period of time.



BIS’ response to our draft report stated agreement with these recommendations. For the first
recommendation, BIS stated that OEE has designated a senior Special Agent as program
manager for CWC-related enforcement. The program manager will forward referrals from TCD
to the field for action and share case results with TCD at the appropriate point in OEE’s
investigation. For the second recommendation, BIS pointed out that the number of referrals is
small, an observation with which we agree. However, we still believe that TCD could benefit
from tracking its referrals to OEE to ensure the division obtains feedback on the status of the
investigations.




75
  The referral for FY 2004 had just been made to OEE at the time of our review, thus OEE had not yet had time to
take any action.
                                                       47

U.S. Department of Commerce                                                  Final Report IPE-16946

Office of Inspector General                                                             March 2005


                              SUMMARY OF RECOMMENDATIONS 


We recommend that the Acting Under Secretary for Industry and Security ensure that the
following actions are taken:

1. 	   Establish specific timeframes for reviewing and signing off on license applications after
       approval by the referral agencies (see page 11).

2. 	   Develop and maintain clear, consolidated, and up-to-date guidance, or an internal
       operations handbook, to strengthen current license application review practices and help
       ensure that they are consistently applied (see page 11).

3. 	   Assess the feasibility of providing LOs with the information housed in the Automated
       Targeting System and Automated Export System for use in their review of license
       applications (see page 25).

4. 	   Work with the intelligence community to develop a method to analyze and track the
       cumulative effect of dual-use exports to countries and entities of concern (see
       page 25).

5. 	   Take appropriate actions to sustain recent improvements in the timeliness of U.S.
       publication of Australia Group guidelines and rule changes that impact the Commerce
       Control List (see page 31).

6. 	   Work with the State Department, and the other licensing referral agencies, to develop and
       implement written procedures for handling the AG denial notification process. The
       procedures should cover, at a minimum:
       x the U.S. policy on submitting denials to the AG,
       x when U.S. denial notifications will be sent to the AG—either when the intent to deny
           letter is sent or after the 45-day rebuttal period has lapsed, and
       x	 how U.S. decisions to rescind prior denial notifications to the AG will be made. This
           should specify how State will exercise its representation authority and how the other
           licensing agencies will be involved in the decision making process (see page 37).

7. 	   Explore ways to do more outreach to the chemical exporting community, including lower
       cost outreach alternatives, such as setting up briefings in Washington, mailings, or
       piggybacking on outreach done in connection with CWC compliance activities conducted
       by BIS’ Treaty Compliance Division (see page 42).

8. 	   Pursue multilateral controls on the 25 items now on the HHS/APHIS Select Agent List
       that are not currently controlled for export. If agreement cannot be reached
       multilaterally, evaluate putting the 25 items on the CCL unilaterally (see page 42).

9. 	   Inform APHIS and CDC registered entities in writing of the need to comply with the
       EAR and how to apply for an export license if they plan to export controlled items (see
       page 42).


                                               48

U.S. Department of Commerce                                                   Final Report IPE-16946

Office of Inspector General                                                              March 2005


10. 	   Direct OEE to inform TCD of the outcome of the CWC-related investigations upon
        completion so information can be shared with the chemical exporting community and the
        Organization for the Prohibition of Chemical Weapons (see page 46).

11. 	   Ensure that TCD builds a system to track CWC investigative referrals so it can follow up
        if OEE has not provided the status of the investigations in a specified period of time (see
        page 46).




                                                49

U.S. Department of Commerce                                        Final Report IPE-16946

Office of Inspector General                                                   March 2005


                                 APPENDIXES

                                  Appendix A

                               List of Acronyms

ACEP             	            Advisory Committee on Export Policy
AES         	                 Automated Export System
AG       	                    Australia Group
APHIS              	          Animal and Plant Health Inspection Service
BIS       	                   Bureau of Industry and Security
BWC            	              Biological Weapons Convention
CBCD              	           Chemical and Biological Controls Division
CCL         	                 Commerce Control List
CDC 	                         Centers for Disease Control and Prevention
CIA        	                  Central Intelligence Agency
CBP         	                 U.S. Customs and Border Protection
CWC            	              Chemical Weapons Convention
EA      	                     Export Administration
EAA          	                Export Administration Act
EAR 	                         Export Administration Regulations
EARB             	            Export Administration Review Board
ECASS               	         Export Control Automated Support System
ECCN 	                        Export Control Classification Number
EE      	                     Export Enforcement
FY      	                     Fiscal Year
GAO           	               Government Accountability Office
HWA            	              Hold Without Action
LO      	                     Licensing Officer
LOOM 	                        Licensing Officers Operating Manual
MTCR 	                        Missile Technology Control Regime
MTEC 	                        Missile Technology Export Control Group
NDAA 	                        National Defense Authorization Act
NSG          	                Nuclear Suppliers Group
OC       	                    Operating Committee
OEE 	                         Office of Export Enforcement
OIG 	                         Office of Inspector General
OMB 	                         Office of Management and Budget
PLC         	                 Pre-License Check
PSV         	                 Post Shipment Verification
RWA            	              Return Without Action
SED         	                 Shipper’s Export Declaration
TCD          	                Treaty Compliance Division
US&FCS 	                      United States and Foreign Commercial Service
WINPAC 	                      Weapons Intelligence, Nonproliferation, and Arms
                              Control Center


                                       50

U.S. Department of Commerce                                                   Final Report IPE-16946

Office of Inspector General                                                              March 2005


                                            Appendix B 


                                 Australia Group Members 



                                 European
               Argentina                          Republic of Korea       Romania
                                Commission
                Australia         Finland               Latvia         Slovak Republic
                 Austria          France               Lithuania          Slovenia
                Belgium          Germany              Luxembourg            Spain
                Bulgaria          Greece                 Malta             Sweden
                 Canada          Hungary              Netherlands        Switzerland
           Republic of Cyprus    Iceland              New Zealand     Republic of Turkey
             Czech Republic       Ireland               Norway         United Kingdom
                Denmark            Italy                Poland          United States

                 Estonia          Japan                Portugal




                                                51

U.S. Department of Commerce                                               Final Report IPE-16946

Office of Inspector General                                                          March 2005


                                        Appendix C

     List of Previous Commerce and Interagency Office of Inspector General Reports, 

          Completed Pursuant to the National Defense Authorization Act For 2000 


   March 2000—(1) Improvements Are Needed in Programs Designed to Protect Against the
   Transfer of Sensitive Technologies to Countries of Concern, U.S. Department of Commerce
   Office of Inspector General, IPE-12454-1, (2) Interagency Inspector General Assessment of
   Measures to Protect Against the Illicit Transfer of Sensitive Technology, conducted by the
   Offices of Inspector General at the Departments of Commerce, Defense, Energy, State, and
   the Treasury, and the Central Intelligence Agency, 00-OIR-06, and (3) Interagency Review of
   the Export Licensing Process for Foreign National Visitors, conducted by the Offices of
   Inspector General at the Departments of Commerce, Defense, Energy, and State, D-2000­
   109.

   March 2001—(1) Management of Commerce Control List and Related Processes Should be
   Improved, U.S. Department of Commerce Office of Inspector General, IPE-13744 and (2)
   Interagency Review of the Commerce Control List and the U.S. Munitions List, conducted by
   the Offices of Inspector General at the Departments of Commerce, Defense, Energy, and
   State, D-2001-092.

   February 2002— BXA Needs to Strengthen Its ECASS Modernization Efforts to Ensure
   Long-Term Success of the Project, U.S. Department of Commerce Office of Inspector
   General, IPE-14270.

   March 2002—Interagency Review of Federal Automated Export Licensing Systems,
   conducted by the Offices of Inspector General at the Departments of Commerce, Defense,
   Energy, State, and the Treasury, D-2002-074.

   March 2003— Improvements Are Needed to Better Enforce Dual-Use Export Control Laws,
   U.S. Department of Commerce Office of Inspector General, IPE-15155.

   April 2003—Interagency Review of Federal Export Enforcement Efforts, conducted by the
   Offices of Inspector General at the Departments of Commerce, Defense, State, and the
   Treasury, and the Central Intelligence Agency and the U.S. Postal Service, D-2003-069.

   March 2004—Deemed Export Controls May Not Stop the Transfer of Sensitive Technology
   to Foreign Nationals in the U.S., U.S. Department of Commerce Office of Inspector General,
   IPE-16176.

   April 2004—Interagency Review of Foreign National Access to Export-Controlled
   Technology in the United States, conducted by the Offices of Inspector General at the
   Departments of Commerce, Defense, Energy, Homeland Security, and State, and the Central
   Intelligence Agency, D-2004-062.




                                             52

U.S. Department of Commerce                                     Final Report IPE-16946

Office of Inspector General                                                March 2005


                                       Appendix D

                              Agency Response to Draft Report




                                            53

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              54

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              55

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              56

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              57

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              58

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              59

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              60

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              61

U.S. Department of Commerce         Final Report IPE-16946

Office of Inspector General                    March 2005





                              62

